APPENDIX

1a
APPENDIX A
NOTE: This order is nonprecedential.
UNITED STATES COURT OF APPEALS FOR THE FEDERAL
CIRCUIT
______________________
IMPLICIT, LLC,

Appellant
v.
SONOS, INC.,

Appellee
ANDREI IANCU, Under Secretary of Commerce for
Intellectual Property and Director of the United
States Patent and Trademark Office,

Intervenor
______________________
2020-1173, -1174
______________________
Appeals from the United States Patent and
Trademark Office, Patent Trial and Appeal Board in
Nos. IPR201800766 and IPR2018-00767.

2a
______________________
ON MOTION
______________________
Before PROST, Chief Judge, LOURIE and CHEN,
Circuit Judges.
LOURIE, Circuit Judge.
ORDER
Implicit, LLC moves to vacate the decisions of the
Patent Trial and Appeal Board and to remand for
further proceedings in light of Arthrex, Inc. v. Smith
& Nephew, Inc., 941 F.3d 1320 (Fed. Cir. 2019), cert.
granted, 2020 WL 6037208 (U.S. Oct. 13, 2020).
Sonos, Inc. and the Director of the United States
Patent and Trademark Office separately oppose the
motion. Implicit replies. Sonos moves to stay the
appeals pending the Supreme Court of the United
States’ resolution of Arthrex. Implicit opposes the
motion to stay. Sonos replies. Upon consideration
thereof,
IT IS ORDERED THAT:
(1) Implicit’s motion to vacate and remand is
granted to the extent that the Patent Trial and
Appeal Board’s decisions are vacated, and the cases
are remanded to the Board for proceedings consistent
with this court’s decision in Arthrex.
(2) Sonos’ motion to stay is denied.
(3) Each side shall bear its own costs.

3a
FOR THE COURT
December 23, 2020
Date
s25

/s/ Peter R. Marksteiner
Peter R. Marksteiner
Clerk of Court

4a
APPENDIX B
UNITED STATES PATENT AND
TRADEMARK OFFICE
BEFORE THE PATENT TRIAL AND
APPEAL BOARD
____________
SONOS, INC.,
Petitioner,
v.
IMPLICIT, LLC,
Patent Owner.
____________
Case IPR2018-00766
Patent 7,391,791 B2
____________
Before MICHELLE N. WORMMEESTER, SHEILA
F. McSHANE, and NABEEL U. KHAN,
Administrative Patent Judges.
McSHANE, Administrative Patent Judge.

5a
FINAL WRITTEN DECISION

Inter Partes Review
35 U.S.C. § 318(a) and 37 C.F.R. § 42.73
I. INTRODUCTION
We have jurisdiction to hear this inter partes review
under 35 U.S.C. § 6. This Final Written Decision is issued
pursuant to 35 U.S.C. § 318(a) and 37 C.F.R. § 42.73. For
the reasons discussed herein, we determine that
Petitioner has shown, by a preponderance of the evidence,
that claims 1–3, 6–9, 12, 16, 19, and 23–25 (“the
challenged claims”) of U.S. Patent No.
7,391,791 B2 (Ex. 1001, “the ’791 patent”) are
unpatentable.

A. Procedural Background
Sonos Inc. (“Petitioner”) filed a Petition (“Pet.”)
requesting inter partes review of claims 1–3, 6–9, 12,
16, 19, and 23–25 of the ’791 patent pursuant to 35
U.S.C. §§ 311–319. Paper 1. Petitioner also filed the
supporting Declaration of Roman Chertov, Ph.D.
(“Chertov Declaration”) to support its positions. Ex.
1009.
Implicit, LLC (“Patent Owner”) filed a
Preliminary Response to the Petition. Paper 6.
Pursuant to 35 U.S.C. § 314(a), on September 19,
2018, we instituted inter partes review on the
grounds of
whether claims 1–3, 6–9, 12, 16, 19, and 23–25 are

6a
anticipated by Janevski1 under 35 U.S.C. § 102(e);2
whether claims 1–3, 6–9, and 12 would have been
obvious over Janevski under 35 U.S.C. § 103(a); and
whether claims 1–3, 6–9, and 12 would have been
obvious over Janevski and Schneidewend 3 under 35
U.S.C. § 103(a).
See Paper 10 (“Inst. Dec.” or “Dec.”).
Patent Owner filed a Patent Owner Response
(“PO Resp.”). Paper 13. Patent Owner filed the
Declaration of Dr. Atif Hashmi (Ex. 2080, “Hashmi
Declaration”). Petitioner filed a Reply (“Pet. Reply”)
to the Patent Owner Response. Paper 22. Petitioner
also filed the supporting Rebuttal Declaration of Dr.
Roman Chertov (“Rebuttal Chertov Declaration”).
Ex. 1022.
Patent Owner filed a Sur-Reply to
Petitioner’s Reply (“PO SurReply”). Paper 28.
Petitioner filed a Motion to Exclude Evidence,
Patent Owner filed a Response in Opposition to the
Motion to Exclude, and Petitioner filed a Reply to
Patent Owner’s Opposition. Paper 36 (“Mot. Ex.”);
Paper 39 (“Mot. Ex. Opp.”); Paper 40 (“Mot. Ex.
Reply”).
An oral hearing was held on June 17, 2019, which
1 U.S. Patent No. 7,269,338 B2 (issued September 11, 2007) (Ex.
1007).
2 The Leahy-Smith America Invents Act (“AIA”), Pub. L. No.
112-29, 125
Stat. 284, 285–88 (2011), amended 35 U.S.C. §§ 102 and 103.
Because the ’791 patent was filed before the effective date of the
relevant amendments, the pre-AIA versions of §§ 102 and 103
apply.
3 U.S. Patent No. 8,286,207 B1 (issued October 9, 2012) (Ex.
1008).

7a
was consolidated with IPR2018-00767. A transcript
of the hearing is included in the record. Paper 45
(“Tr.”).

B. Related Proceedings
The parties indicate that a related matter is
Implicit, LLC v. Sonos, Inc., No. 1:17-CV-00259-LPS (D.
Del.) (“the Litigation”). Pet. 2; Paper 5, 2. Patent
Owner also indicates that Implicit, LLC v. D&M Holdings
U.S. Inc., No. 1:17-CV-00258-LPS (D. Del.) is a related
district court matter. Paper 5, 2.

C. The ’791 Patent
The ’791 patent is entitled “Method and System
for Synchronization of Content Rendering” and issued
on June 24, 2008 from an application filed on
December 17, 2002. Ex. 1001, [22], [45], [54]. The
’791 patent claims priority to U.S. Provisional
Application No. 60/341,574, filed on December 17,
2001. Id. at [60].
The ’791 patent is directed generally to
synchronizing the rendering of content at multiple
rendering devices. Ex. 1001, Abs., 1:50–52, Fig. 1.
Rendering devices are presentation devices that
present video, audio, and text displays, for instance.
Id. at 1:19–24, 3:60–64, Fig. 1. The ’791 patent
explains that different rendering devices may have
different time domains that make synchronized
presentation difficult and a goal of the invention is to
render multimedia presentation in a synchronized
manner. Id. at 1:36–38, 1:50–52.
Each rendering device may have a “device time”
and a “rendering time.” Ex. 1001, 2:14–16. The
“device time” is described as “the time indicated by a

8a
designated clock (e.g., system clock) of the rendering
device,” and the “rendering time” is described as “the
time represented by the amount of content that has
been rendered by that rendering device.” Id. at 2:16–
19.
The rendering time for content has a
corresponding device time, “which is the device time
at which the rendering occurred.” Id. at 2:22–24. The
’791 patent discloses that in order to synchronize the
respective rendering devices, “the synchronization
system designates one of the rendering devices as a
master rendering device and designates all other
rendering devices as slave rendering devices.” Id. at
2:28–32.
The ’791 patent discloses a method for
calculations of the time domain differential between
two devices, illustrated by Figure 2, which is
reproduced below. Ex. 1001, 1:58–59.

9a

Figure 2, above, depicts the exchange of time
domain messages between a master device and a
slave device and calculates the average of the
differences in the send and receive times of the
messages to determine a time domain differental
between the two devices. Ex. 1001, 4:47–5:35.
Additionally, the master device sends a rendering
time message to the slave device, which indicates the
master device rendering time. Id. at 2:34–36, 7:50–59,
Fig. 9.
In an embodiment of the ’791 patent, the slave
device converts the master device time value into the
slave device time domain using the time domain
differential.
Ex. 1001, 3:45–48, 4:28–32.
The
difference between the master rendering time and the
slave rendering time is determined and applied in

10a
different manners to compensate for the differences
in the rendering times in the embodiments. Id. at
2:39–61, 4:35–46, 7:66–8:11, Fig. 10.
Claims 1, 16, and 23 are independent claims.
Claims 1 and 23 are reproduced below, with
annotations added to the step limitations for
reference purposes.
1. A method for synchronizing a rendering of a
content provided by a source at one or more devices
which are nodes of a network, the content having a
rendering time, the method comprising:
[a] designating one of the one or more devices a
master device, the master device having a master
device time and a master rendering time;
[b] designating remaining devices among one of
the one or more devices as at least one slave device,
the at least one slave device having a slave device
time and a slave rendering time;
[c] receiving the content for rendering by the
master and at least one slave device;
[d] sending from the master device to the at least
one slave device an indication of when the master
device renders content corresponding to the master
rendering time;
[e] determining a master device time domain, a
slave device time domain, and a source time domain;
[f] determining whether a time domain
differential exists between the master rendering time,
the slave rendering time; and
[g] adjusting, based on the received indication, the
rendering of the content at the at least one slave
device within the slave device time domain and in

11a
proportion to the time domain differential when
present to account for variation between when the
master device and the at least one slave device to
render content that should be rendered at the same
time.
23. A method for synchronizing rendering of
content at devices which are nodes of a network, each
device having a device time and a rendering time, the
device time of a device being in a time domain of the
device, the method comprising:
[a] designating one of the devices as a master
device having a master rendering time and the one or
more slave devices having a slave rendering time; and
for each slave device,
[b] exchanging time domain information between
the master and one or more slave devices;
[c] calculating a time domain difference between
the master rendering time of the master device and
the slave rendering time of the slave device based on
a master device time adjusted for a difference in time
domains of the slave device and the master device;
and
[d] rendering content at the slave device to
account for the calculated time domain difference.
Ex. 1001, 8:25–53, 10:37–52.
II. ANALYSIS

A. The Parties’ Post-Institution Arguments
In our Decision on Institution, we concluded that
the arguments and evidence advanced by Petitioner
demonstrated a reasonable likelihood that claims 1–
3, 6–9, 12, 16, 19, and 23–25 of the ’791 patent would
have been unpatentable under 35 U.S.C. § 102 and/or

12a
§ 103 over the asserted prior art. Dec. 9–22. We now
determine whether Petitioner has established by a
preponderance of the evidence that claims 1–3, 6–9,
12, 16, 19, and 23–25 are unpatentable.
We
previously instructed Patent Owner “that any
arguments concerning patentability not raised in the
response will be deemed waived.” Paper 9, 5; see also
37 C.F.R. § 42.23(a) (“Any material fact not
specifically denied may be considered admitted.”); In
re Nuvasive, Inc., 842 F.3d 1376, 1379–82 (Fed. Cir.
2016) (holding Patent Owner waived an argument
addressed in Preliminary Response by not raising the
same argument in the Patent Owner Response).
Additionally, the Board’s Trial Practice Guide states
that the Patent Owner Response “should identify all
the involved claims that are believed to be patentable
and state the basis for that belief.” Office Patent Trial
Practice Guide, 77 Fed. Reg. 48,756, 48,766 (Aug. 14,
2012).
With a complete record before us, we note that we
have reviewed arguments and evidence advanced by
Petitioner to support its unpatentability contentions
where Patent Owner chose not to address certain
limitations in its Patent Owner Response. Where
Patent Owner has provided argument and evidence in
the Patent Owner Response, it has been considered.
In this regard, the record contains persuasive
arguments and evidence presented by Petitioner and
based on the preponderance of the evidence before us,
we conclude that the art identified by Petitioner
discloses, teaches, or suggests all of the limitations of
claims 1–3, 6–9, 12, 16, 19, and 23–25 of the ’791
patent.

13a

B. Claim Construction
In an inter partes review, the Board interprets
claim terms in an unexpired patent according to the
broadest reasonable interpretation in light of the
specification of the patent in which they appear. 37
C.F.R. § 42.100(b).4 Under that standard, and absent
any special definitions, we give claim terms their
ordinary and customary meaning, as they would be
understood by one of ordinary skill in the art at the
time of the invention. In re Translogic Tech., Inc., 504
F.3d 1249, 1257 (Fed. Cir. 2007). A claim term,
however, “will not receive its ordinary meaning if the
patentee acted as his own lexicographer and clearly
set forth a definition of the disputed claim term in
either the specification or prosecution history.” CCS
Fitness, Inc. v. Brunswick Corp., 288 F.3d 1359, 1366
(Fed. Cir. 2002).

“device time”
Petitioner proposes that the claim term “device
time” be interpreted as “the time as indicated by a
designated clock (e.g., system clock) of the rendering
device.” Pet. 17. Petitioner asserts that this proposed
interpretation is consistent with the disclosure in the
’791 patent. Id. (citing Ex. 1001, 2:16–17).
Patent Owner proposes that claim terms “master
device time,” “slave device time,” and “device time” of
a “slave” should be construed as “time indicated by a
4 The amendment to this rule does not apply here because the
Petition was filed on March 9, 2018, which is prior to the
November 13, 2018 effective amendment date. See Changes to
the Claim Construction Standard for Interpreting Claims in
Trial Proceedings Before the Patent Trial and Appeal Board, 83
Fed. Reg. 51,340, 51,343–44 (Oct. 11, 2018).

14a
designated clock of the [master/slave] device,” which
was the agreed-upon construction by the parties in a
related district court proceeding. PO Resp. 32 (citing
Ex. 2010, 2).
In this instance, the ’791 patent specification
clearly sets forth a specific meaning for the term
“device time,” which is that proposed by Petitioner.
See Ex. 1001, 2:16–17. Therefore, in accordance with
the specification, we adopt the interpretation of
“device time” as “the time as indicated by a designated
clock (e.g., system clock) of the rendering device.”
“rendering time”
Petitioner points to the ’791 patent’s disclosure
stating that a device’s “rendering time” is “the time
represented by the amount of content that has been
rendered by that rendering device.” Pet. 17 (citing Ex.
1001, 2:18–19). This interpretation of the claim term
has not been disputed by Patent Owner. See PO Resp.
13, 32–38.
We agree with Petitioner that the ’791 patent
specification clearly sets forth a specific meaning for
the term “rendering time,” which is that proposed by
Petitioner. See Ex. 1001, 2:18–19. Therefore, in
accordance with the specification, we adopt the
interpretation of “rendering time” as “the time
represented by the amount of content that has been
rendered by that rendering device.”

“time domain”
Patent Owner asserts that “time domain” should
be construed as “the way a device clock tracks time,”
which is the interpretation that Petitioner proposed
in a co-pending litigation. PO Resp. 37 (citing Ex.

15a
2010, 2). In support, Patent Owner points to the ’791
specification that indicates that an example of a time
domain is that rending devices “may have system
clocks that operate at slightly different frequencies”
(Ex. 1001, 1:38–40), and as part of system
synchronization, device times may be exchanged as
indicated by a designated clock, such as a system
clock (Id., 4:46–5:60). PO Resp. 37.
Petitioner proposes that under the broadest
reasonable interpretation that “time domain
differential” as used in the claims should be
interpreted to cover “any synchronization between a
time measure of a master rendering device and a
corresponding time measure of a slave rendering
device during playback, where the time measure
could either be device time or rendering time.” Pet.
18. In its Reply, Petitioner argues that Patent Owner
attempts to limit the interpretation of the “time
domain” term to only a device clock, when the ’791
patent discloses that rendering devices may have
multiple time domains that include a system clock.
Pet. Reply 25. Petitioner cites to the ’791 patent
specification, which states that “some rendering
devices may have multiple time domains,” with one
example being “an audio rendering device may have a
system clock and a clock on a digital signal processing
(‘DSP’) interface card.” Id. (citing Ex. 1001, 1:44–
47). In response, Patent Owner asserts that even if
there is a combination of clocks disclosed, that does
not preclude Patent Owner’s proposed construction.
PO Sur-Reply 22–23.
In view of the specification’s disclosures, we adopt
the construction of

16a
“time domain” as “the way a device clock tracks
time.” We note that the ’791 patent discloses that a
device may have multiple clocks and different types of
clocks, such as a system clock or a clock on a digital
signal processing interface card. See Ex. 1001, 1: 45–
47.
Other Claim Terms
We determine that it is not necessary to provide
an express interpretation of any other term of the
claims. See Vivid Techs., Inc. v. Am. Sci. & Eng’g, Inc., 200
F.3d 795, 803 (Fed. Cir. 1999)) (“[O]nly those terms
need be construed that are in controversy, and only to
the extent necessary to resolve the controversy.”).

C. Status of Janevski as Prior Art
Patent Owner asserts that Janevski does not
constitute prior art to the challenged claims under §
102(e) because the subject matter of the claims was
conceived and actually reduced to practice prior to
Janevski’s filing date of December 11, 2001. See PO
Resp. 13–31. In response, Petitioner asserts that
Patent Owner’s antedating assertions are legally and
substantively defective. Pet. Reply 1–22. More
specifically, Petitioner argues that Patent Owner
provides only uncorroborated inventor testimony on
the conception of the invention and the
communication of the invention for the reduction to
practice, and, therefore, inurement to the benefit of
the inventor has not been sufficiently demonstrated.
Id. at 5–9. Petitioner also asserts that the evidence of
the actual reduction to practice is insufficient to
demonstrate the practice of every claim limitation. Id.
at 12–22. For the reasons set forth below, we are not
persuaded that Patent Owner has provided sufficient

17a
evidence to meet its burden to demonstrate
antedating the ’791 patent prior to the December 11,
2001 filing date of Janevski.

1. Antedating, Generally
Petitioner bears the burden of persuasion, by a
preponderance of the evidence, that the challenged
claims are unpatentable.
35 U.S.C. § 316(e).
Petitioner
has
proffered
Janevski,
which
presumptively constitutes prior art under 35 U.S.C. §
102(e), because it was filed in the U.S. Patent and
Trademark Office on December 11, 2001, which is
prior to the filing date of December 17, 2002, of the
’791 patent, and its priority claim to U.S. Provisional
Application No. 60/341,574, filed on December 17,
2001. This difference in dates gives rise to Patent
Owner’s burden to produce evidence supporting a
date of invention before Janevski’s filing date. See
Mahurkar v. C.R. Bard, Inc., 79 F.3d 1572, 1576–77 (Fed.
Cir. 1996).
“To antedate . . . an invention, a party must show
either an earlier reduction to practice, or an earlier
conception followed by a diligent reduction to
practice.” Purdue Pharma L.P. v. Boehringer Ingelheim
GMBH, 237 F.3d 1359, 1365 (Fed. Cir. 2001). A party
seeking to establish an actual reduction to practice
must satisfy a two-prong test: (1) the party must
construct an embodiment or perform a process that
satisfies every element of the claim at issue, and (2)
the embodiment or process must operate for its
intended purpose. See Eaton v. Evans, 204 F.3d 1094,
1097 (Fed. Cir. 2000). The constructed embodiment
must have been tested sufficiently to demonstrate
that it will work for its intended purpose, but it need

18a
not be in a commercially satisfactory stage of
development. See, e.g., Scott v. Finney, 34 F.3d 1058,
1062 (Fed. Cir. 1994); see also Wells v. Fremont, 177
USPQ 22, 24–25 (BPAI 1972). An actual reduction to
practice can be done by another on behalf of the
inventor. De Solms v. Schoenwald, 15 USPQ2d 1507,
1510 (BPAI 1990).
Acts by others working explicitly or implicitly at
the inventor’s request can inure to an inventor’s
benefit. Cooper v. Goldfarb, 154 F.3d 1321, 1332 (Fed.
Cir. 1998). Inurement involves a claim by an inventor
that, as a matter of law, the acts of another person
should accrue to the benefit of the inventor. Genentech,
Inc. v. Chiron Corp., 220 F.3d 1345, 1353 (Fed. Cir.
2000). However, when a person relies on the activities
of others to show actual reduction to practice, proof of
conception is relevant to inurement. See NFC Tech.,
LLC v. Matal, 871 F.3d 1367, 1371–72 (Fed. Cir. 2017);
see also Sensio, Inc. v. Select Brands, Inc., Case IPR2013–
00580, slip op. at 10–15 (PTAB Feb. 9, 2015) (Paper
31). Under Genentech, 220 F.3d at 1354, and Cooper v.
Goldfarb, 240 F.3d 1378, 1383 (Fed. Cir. 2001), a
Patent Owner must show that the inventor conceived
the subject matter of the challenged claims and
communicated that subject matter in order to inure to
inventor’s benefit. In Genentech, in the context of
deciding whether the reduction to practice inured to
the inventor’s benefit, the Federal Circuit held that
the inventor first must show that it conceived the
invention. Genentech, 220 F.3d at 1354 (“[W]e glean at
least three requirements that must be met before a
non-inventor’s recognition of the utility of an
invention can inure to the benefit of the inventor.

19a
First, the inventor must have conceived of the
invention.”).
Priority of invention and its constituent issues of
conception and reduction to practice “are questions of
law predicated on subsidiary factual findings.” Singh
v. Brake, 317 F.3d 1334, 1340 (Fed. Cir. 2003).
Conception is “the formation, in the mind of the
inventor of a definite and permanent idea of the
complete and operative invention, as it is thereafter
to be applied in practice.” Coleman v. Dines, 754 F.2d
353, 359 (Fed. Cir. 1985) (citing Gunter v. Stream, 573
F.2d 77, 80 (CCPA 1978)) (emphasis omitted). The
conception analysis “necessarily turns on the
inventor’s ability to describe his invention with
particularity. Until he can do so, he cannot prove
possession of the complete mental picture of the
invention.” Burroughs Wellcome Co. v. Barr Labs., Inc., 40
F.3d 1223, 1228 (Fed. Cir. 1994). Proof of conception
cannot turn on the inventor’s testimony alone, but
must include “corroborating evidence which shows
that the inventor disclosed to others his ‘completed
thought expressed in such clear terms as to enable
those skilled in the art’ to make the invention.”
Coleman, 754 F.2d at 359.
The sufficiency of
corroboration is determined according to a “rule of
reason.” Price v. Symsek, 988 F.2d 1187, 1195 (Fed. Cir.
1993) (citation omitted). This, however, does not
dispense with the requirement that some
independent evidence must provide corroboration.
Coleman, 754 F.2d at 360; see also NTP, Inc., 654 F.3d at
1291–92
(noting
requirement
of
evidence
corroborating inventor testimony).

2. Conception and Inurement to the Benefit of

20a

Inventor
a. Patent Owner’s Arguments
Patent Owner alleges that the genesis of what
ultimately became the inventions of the challenged
claims of the ’791 patent started in connection with
BeComm’s Juno project, which was a project for Intel.
PO Resp. 18 (citing Ex. 2001 ¶¶ 26–32). Edward
Balassanian, one of the named inventors of the ’791
patent, was the President and CEO of BeComm, and
was named in the Juno project team. Id. (citing Ex.
2001 ¶ 32; Ex. 2011, 8). The other named co-inventor,
Scott Bradley, was also named as a member of the
Juno project. Id. Patent Owner argues that the Juno
project recognized that true synchronization was “an
unsolved computer science project, but a best effort
will be made in this regard.” Id. at 18–19 (citing Ex.
2009, 15; Ex. 2011, 37–38; Ex. 2001 ¶¶ 29–30). Patent
Owner alleges that although Intel put the Juno
project on hold in February 2001, BeComm continued
to work on the synchronization problem. Id. at 19
(citing Ex. 2001 ¶ 30; Ex. 2012).
Patent Owner alleges that Messrs. Balassanian
and Bradley conceived of the inventions of the ’791
patent at least by December 11, 2001. PO Resp. 19
(citing Ex. 2001 ¶¶ 33, 42–47); see also id. at 15 (citing
Ex. 2001 ¶¶ 6, 33, 42). Patent Owner contends that
the inventors communicated the inventions to an
internal engineering and development staff, working
primarily with Guy Carpenter, an engineer, for
implementation. Id. (citing Ex. 2001 ¶ 33).
Patent Owner asserts that BeComm source code
corroborates Mr. Balassanian’s testimony concerning
the invention’s conception and reduction to practice

21a
prior to December 11, 2001. PO Resp. 19–20. Patent
Owner also asserts that BeComm’s internal
documents provide additional corroboration of Mr.
Balassanian’s testimony. Id. at 20–22. Patent Owner
points to a document entitled “Using Strings to
Compose Applications from Reusable Components,”
dated October 4, 2001, as providing support. Id. at 21
(citing Ex. 2021; Ex. 2001 ¶¶ 61–62, 109). Patent
Owner also points to a case study printed on
December 3, 2001, that describes synchronization
functionality. Id. at 22 (citing Ex. 2029, 5–7; Ex. 2077,
28–30).
Finally, Patent Owner refers to a
“synchronization.doc” file, which was allegedly
completed on December 9, 2001, which describes
functionality using beads. Id. (citing Ex. 2001 ¶ 75;
Ex. 2037; Ex. 2077, 33; Ex. 2078). Patent Owner
argues that synchronization.doc was filed as the
provisional patent application on December 17, 2001,
without any substantive changes, and this further
evidences prior conception. Id. (citing Ex. 2001 ¶ 75,
Ex. 2037; Ex. 2038; Ex. 2077, 33; Ex. 2078).
Patent Owner argues that the cited documentary
evidence should serve as corroborating evidence
because the documents were stored in a Concurrent
Version System (“CVS”) repository, where the
documents were time stamped when added and
updated in the repository. PO Sur-Reply 3. Patent
Owner argues that this evidence should be considered
under a rule of reason, which considers the body of
evidence as a whole. Id. Patent Owner notes that it
produced to Petitioner the source code repository for
Strings, the hard drive of the BeComm demo laptop,
and the website root directory from the 2000–2001

22a
time period, and allowed copying by a forensic expert.
Id., 2, n.1.

b. Petitioner’s Arguments
Petitioner argues that to demonstrate conception
a party must show possession of every feature recited
in the claims, and Mr. Balassanian’s declaratory
testimony fails to address the claims at issue. Pet.
Reply 1–2. Petitioner contends that Patent Owner
relies on an expert to make a mapping of code to the
elements of the invention, but that does not
demonstrate that the inventor conceived of the
elements of the claims. Id. at 4. Petitioner argues
that when a party seeks to prove conception through
an inventor’s testimony, the party must offer evidence
in addition to that testimony. Id. at 5 (citing Mahurkar,
79 F.3d at 1577). Petitioner asserts that even if the
sufficiency of corroboration is determined under a
rule of reason, the evidence of corroboration must not
be solely dependent on the inventor’s testimony. Id. at
5–6 (citing Cooper, 154 F.3d at 1330).
Petitioner argues that Patent Owner relies on the
source code written by a non-inventor, Guy Carpenter,
to establish conception of the invention. Pet. Reply 9.
Petitioner contends that Patent Owner presents no
evidence, short of uncorroborated inventor testimony,
that the inventors communicated the invention to Mr.
Carpenter. Id. Petitioner contends that because the
record is devoid of evidence that Mr. Carpenter’s work
inured to the benefit of the inventors, the Board
should not rely on the code in assessing either
conception or reduction to practice. Id.

c. Analysis

23a
Because the invention of the claims of the ’791
patent was allegedly reduced to practice by a noninventor, Mr. Carpenter, Patent Owner must
sufficiently demonstrate conception of the invention
in order to carry its burden to antedate the Janevski
reference. Genentech, 220 F.3d at 1354. Patent Owner
does not argue otherwise—and Patent Owner
provides its purported support for conception of the
claimed invention in its briefing (see PO Resp. 18–22),
and at oral hearing (see Tr. 35:2–5, 40:2–43:7).
We examine the evidence of record on conception
under a rule of reason. Here, documentary evidence
could serve to corroborate Mr. Balassanian’s
testimony under a rule of reason, and here that
evidence is the documents that Patent Owner refers
to which had been stored in an electronic CVS
repository. Petitioner filed a Motion to Exclude this
evidence arguing that it had not been properly
authenticated under the Federal Rules of Evidence
901.
However, as discussed infra Section III,
Petitioner’s Motion is denied because there is no
dispute that the documents were stored in the CVS
repository, with repository logs produced (Ex. 2077),
and Petitioner was permitted to forensically examine
the electronic evidence, which included date stamps
and other metadata, which provides supplemental
information in support of authentication.
Although we consider the documentary evidence
that Patent Owner relies upon for corroboration of Mr.
Balassanian’s testimony under a rule of reason, the
issue considered is whether the documents do provide
factual support for Patent Owner’s allegations
concerning conception of the invention, which we

24a
discuss below. If the documents do not provide that
support, all that remains is Mr. Balassanian’s
testimony.
Regarding the conception of the invention of the
claims of the ’791 patent, Mr. Balassanian’s testimony
is limited to: Around the time of the Juno project (and
after the project for Intel went on hold), I
contemplated how to achieve the bestpossible
synchronization of content across multiple devices as
we continued our work. Mr. Bradley and I solved the
synchronization problem and conceived the
inventions set forth in the Claims of the Patents. We
then began working on the implementation of the
inventions thereafter, as detailed below. We
communicated those inventions to BeComm’s internal
engineering and development staff to reduce them to
practice. Ex. 2001 ¶ 33.
Patent Owner does not provide a specific date of
conception in the time between February 2001—when
Patent Owner indicates that the synchronization
problem was still unsolved—and December 11, 2001.
Patent Owner instead contends that the conception
date was at least prior to the date of the Janevski
priority date of December 11, 2011, which is also at
least the date by which the invention was allegedly
actually reduced to practice.5 PO Resp. 18–19.
At the oral hearing, Patent Owner also alternatively alleged
that conception occurred at least by October 28, 2001, because
that is when the actual reduction to practice occurred. See Tr.
40:2–42:26 (stating that the beads were fully operational on
October 23, 2001, and “there’s some time stamps [on related
documents] that are a few days after the 23rd of October so that’s
why I went with that.” (id. at 42:21–22)).
5

25a
On the issue of who conceived of the invention,
Patent Owner relies upon Juno development
documents, wherein Mr. Balassanian and Mr. Bradley
were listed as “Document Contributors,” in support of
conception. See Ex. 2009, 5; Ex. 2011, 8. The Juno
development documents state, however, that
synchronization was an unsolved issue. See Ex. 2009,
15; Ex. 2011, 37–38 (“We have not yet finalized how
Juno will implement the requirement that a Media
Server session be able to simultaneously serve
multiple concurrent Adapters and keep their
playback synchronized . . . In all cases, the Adapter
synchronization in these cases will be difficult at
best.”). Patent Owner refers to the document “Using
Strings to Compose Applications from Reusable
Components” (Ex. 2021), for support of conception,
however, this document does not name any authors
nor does it identify who contributed to its
development.6 Similarly, a case study on distributed
media (Ex. 2029) fails to identify any authors or
contributors. A February 2, 2001 internal email (Ex.
2012) does not suggest or indicate that Mr.
Petitioner argues that Patent Owner fails to establish
conception by showing possession of every feature recited in the
claim. Pet. Reply 1 (citing Coleman, 754 F.2d at 359). We note
that Patent Owner argues that under the “Strings” document’s
disclosures the BeComm technology provided the “best possible
synchronization” and used a clock synchronization modules
encapsulated in a bead placed in the data flow as late as possible
for each rendering device. PO Resp. 20–21 (citing Ex. 2021, 9;
Ex. 2001 ¶¶ 61–62, 109; Ex. 2077, 18). The disclosure in this
document is directed to the placement of general clock
synchronization functionality in a data stream, but does not
disclose or suggest the invention of the claims of ’791 patent,
which is how clock synchronization is actually performed.
6

26a
Balassanian
continued
to
work
on
the
synchronization problem identified in the Juno
project after the project was terminated in
midFebruary 2001, and there is no other
documentary support on that issue.
The document entitled “synchronization.doc” (Ex.
2037), which served as the disclosure for the
provisional application, does not name any authors or
contributors, however, in the metadata for this
document the author is listed as “guyc,” which
appears to identify Guy Carpenter, who wrote the
source code. See Ex. 2077, 33. This identification is
confirmed in a December 15, 2001 email written by
Mr. Bradley, who stated that this document was
written by Mr. Carpenter. Ex. 2038. In that email,
which copied Mr. Balassanian, Mr. Bradley indicated
that the document as written was “sufficient for the
patent provisional as is,” and his additional comments
did not appear to be needed for submittal. See id. This
documentary evidence does not provide support that
Messrs. Balassanian and Bradley conceived of the
invention of the challenged claims of the ’791 patent,
and is dated after the December 11, 2001 priority date
of Janevski.
We have reviewed other evidence in the record,
including a technical presentation (Ex. 2002) and a
case study (Ex. 2029), and find no indication or
suggestions that corroborate conception.
The
documents do not identify Messrs. Balassanian and
Bradley nor do they provide disclosures that evince
possession of invention of the claims of the ’791
patent.
There is no documentary evidence in the record,

27a
besides the limited testimony in Mr. Balassanian’s
declaration reproduced above, that supports that
there was recognition of the conception of the
invention, or that there was any communication of the
invention from Messrs. Balassanian and Bradley to
BeComm’s internal engineering and development
staff, or more specifically, to Mr. Carpenter. Patent
Owner does not address the issue of communication
of the invention in order to inure to inventor’s benefit
in its briefing. See PO Sur-Reply 2–7. There are no
arguments or evidence presented by Patent Owner
that anyone else was involved in development of the
source code besides Mr. Carpenter. See PO Resp. 18–
31; PO Sur-Reply 2–19.
In sum, there is no evidence provided by Patent
Owner as to who conceived of the invention, when the
conception occurred, whether there was a recognition
of conception of the invention embodied in the claims
of the ’791 patent, whether the inventors
communicated the invention to Mr. Carpenter, or
whether Mr. Carpenter was working at the inventors’
request to reduce the invention to practice—with the
exception of the limited testimony of Mr. Balassanian.
It is Patent Owner’s burden to produce evidence
supporting conception before Janevski’s filing date,
and that evidence is required in addition to the
testimony of an alleged inventor. See Mahurkar, 79
F.3d at 1577 (Fed. Cir. 1996). Even if we were to
consider the statements in Mr. Balassanian’s
declaration, we would still find them insufficient to
carry Patent Owner’s burden of production to
establish conception of the invention and the
communication of the invention to Mr. Carpenter

28a
such that any actual reduction to practice could inure
to the inventors’ benefit. Cooper, 240 F.3d at 1383
(Fed. Cir. 2001).
At the oral hearing, Patent Owner argued that
Mr. Carpenter, a source code developer, worked for
BeComm, and Mr. Balassanian was a principal of that
company, so common sense dictated that inurement
should be found. Tr. 56:22–57:10. We recognize that
to establish inurement, another person may be
working “implicitly at the inventor’s request.” Cooper,
154 F.3d at 1332. However, we decline to find that the
generalized relationship of the individuals within an
organization is sufficient to make a requisite showing,
especially in view of the scarcity of other evidence of
conception in the record.
In view of the failure of Patent Owner to carry its
burden to demonstrate conception of the invention,
we need not address issues relating to reduction to
practice of the invention.
Accordingly, because we do not find that
antedating applies, Janevski constitutes prior art to
the challenged claims of the ’791 patent under §
102(e).

D. Level of Ordinary Skill in the Art
Petitioner proposes that one of ordinary skill in
the art would possess “the equivalent of a four-year
degree from an accredited institution in computer
science, computer engineering, electrical engineering,
or the equivalent, and approximately 2–4 years of
professional experience in the fields of networked
systems and networked-based applications, or an
equivalent level of skill and knowledge.” Pet. 70, n.5.

29a
Dr. Chertov provides supporting testimony for the
proposed qualifications. Ex. 1009 ¶ 45. Patent Owner
does not propose any assessment of the level of
ordinary skill in the art or object to Petitioner’s
propose qualifications. See generally PO Resp. 1–41.
Patent Owner’s expert, Dr. Hashmi, declined to offer
an opinion on the qualifications of one of ordinary
skill in the art. Ex. 2080 ¶ 16.
On this record, we adopt Petitioner’s proposed
assessment. In addition, we note that the art of
record in this proceeding—namely, Janevski and
Schneidewend—is indicative of the level of ordinary
skill in the art. See Okajima v. Bourdeau, 261 F.3d 1350,
1355 (Fed. Cir. 2001). Further, neither Dr. Chertov
nor Dr. Hashmi testifies that adoption of a different
definition would change the outcome of this case.
E. Alleged Anticipation of Claims 1–3, 6–9, 12, 16,
19, and 23–25 by Janevski
Petitioner contends that claims 1–3, 6–9, 12, 16,
19, and 23–25 are anticipated by Janevski. Pet. 38–
69. To support its contentions, Petitioner provides
explanations as to how Janevski discloses each claim
limitation. Id. Petitioner also relies upon the Chertov
Declaration (Ex. 1009) and the Rebuttal Chertov
Declaration (Ex. 1022) to support its positions.
We begin our discussion with a brief summary of
Janevski, and then address the evidence and
arguments presented.

1. Janevski (Ex. 1007)
Janevski is directed to synchronizing playback of
digital streams based on rendering personal video
recorder (“PVR”) devices. Ex. 1007, 1:8–20, Fig. 1.

30a
During playback, one PVR may be designated as the
initiator PVR and the other is designated as the
participant PVR. Id. at 6:16–22.
PVRs can account for misalignment of times by
synchronization.
See id. at 8:39–47.
Time
synchronization can be implemented in different
ways, and one method includes the exchange of
synchronization messages as depicted in Figure 4,
reproduced below. Id. at 8:53–10:23, 11:52–12:4,
13:21–22.

Figure 4, above, depicts different “cases” that
represent scenarios wherein the respective PVRs

31a
exchange synchronization messages (402 and 404),
which allows time misregistrations to be calculated.
See Ex. 1007, 8:65– 10:20. Messaging exchanges
include time stamps. See id. at 10:4–12, 11:52–55.
The initiator PVR sends a status message to the
participant PVR that may include calculated time
misregistrations, “the time into the program,” and
identifying information for a “query frame,” which is
a frame that had just been played by the initiator
PVR. See Ex. 1007, 7:36–50, 10:19–35, 12:5–36. The
identifying information includes a query signature
and query time stamp. Id. at 10:19–35, 12:5–36.
Janevski discloses that time misregistrations
between the initiator and participant PVRs are
compensated for in synchronization. Id. at 12:59–
13:21.
After
time
synchronization,
frame
synchronization for fine tuning is done in a second
phase. Ex. 1007, 10:52–62. The query frame and its
identifying information are used to determine if there
are differentials between the frames rendered by the
initiator and participant PVRs, respectively, that
include differences in video time, and are referred to
as differential “frame misregistration.” Id. at 10:36–
60, 13:24–14:63. Frame misregistration between the
devices is compensated for by adjusting the
speed/direction of the video rendering. Id. at 10:60–
62, 13:24–30, 14:35–63.

2. Analysis
A claim is unpatentable under 35 U.S.C. § 102 if
a prior art reference discloses each and every
limitation of the claimed invention, either explicitly
or inherently. Glaxo Inc. v. Novopharm Ltd., 52 F.3d

32a
1043, 1047 (Fed. Cir. 1995); see MEHL/Biophile Int’l
Corp. v. Milgraum, 192 F.3d 1362, 1365 (Fed. Cir. 1999)
(“To anticipate a claim, a prior art reference must
disclose every limitation of the claimed invention . . .
;” any limitation not explicitly taught must be
inherently taught and would be so understood by a
person experienced in the field); In re Baxter Travenol
Labs., 952 F.2d 388, 390 (Fed. Cir. 1991) (the
dispositive question is “whether one skilled in the art
would reasonably understand or infer” that a
reference teaches or discloses all of the limitations of
the claimed invention).

a. Independent Claim 1
i. Petitioner’s Assertions
Petitioner asserts that Janevski discloses every
limitation of claim 1. Pet. 55–64. Beginning with the
preamble, Petitioner contends, and we agree, that
Janevski discloses a method of synchronizing a
rendering of a content from a source at a device, which
is a node of a network.7 Id. at 56. Petitioner asserts,
and we agree, that the rendering devices, such as
PVRs, are nodes of a network, and are interconnected
by an Internet network. Id. (citing Ex. 1007, 1:13–17,
3:13–16, 6:6–10). Janevski discloses the broadcast of
a television program from a network that is
communicated by various means, including the
Internet, to PVRs, for viewers. Id.
For limitation 1[a], which recites “designating one
of the one or more devices a master device, the master
device having a master device time and a master
7 For purposes of this Decision, we assume, without deciding,
that the preamble of claim 1 is limiting.

33a
rendering time,” Petitioner contends, and we agree,
that the “initiator” PVR of Janevski amounts to the
“master device” of the claim. Pet. 56 (citing Ex. 1007,
6:4–25 (“Initially, the ‘initiator’ is the PVR that starts
the session . . . [a]ll other PVRs participating in the
session are ‘participants.’”)). Petitioner asserts, and
we agree, that the PVR has a “time count” provided
by its video timer, which equates to the “master device
time.”
Id. (citing Ex. 1007, 7:51–62, 8:39–10:3
(disclosing the “respective timings of the video
timers”), Figs. 2, 4; Ex. 1009 ¶ 157). Petitioner
further asserts, and we agree, that Janevski discloses
that the PVR keeps track of the amount of time that
a video program has been rendered by “the time or
frame into the program,” which amounts to the
claimed “master rendering time.” Id. at 56–57 (Ex.
1007, 1:65–2:5, 7:41–50; Ex. 1009 ¶ 157).
For limitation 1[b], which recites designating a
slave device, having a slave device time and a slave
rendering time, Petitioner asserts, and we agree, that
a “participant” PVR amounts to a slave device. Pet.
57. Similar to limitation 1[a], Petitioner contends,
and we agree, that the participant PVR has a time
count provided by the video timer, which is the “slave
device time,” as well as keeping track of the amount
of a video program that has been rendered in terms of
“the time or frame into the program.” Id. at 57–58.
For limitation 1[c], Petitioner asserts, and we
agree, that the claimed “receiving content” is
disclosed by Janevski’s disclosure of “synchronized
PVR viewing system” in which the respective initiator
and participant PVRs receive broadcasts of video
content. Pet. 58–59 (citing Ex. 1007, 1:13–17, 3:13–

34a
16 (“As the broadcasts 112a, b enter House 1 and
House 2, respectively, they are received by receivers
113a, b.”), 6:5–39, Fig. 1).
For limitation 1[d], which recites “sending from
the master device to . . . slave device an indication of
when
the
master
device renders
content
corresponding to the master rendering time,”
Petitioner contends, and we agree, that Janevski
discloses sending the query time stamp for “a frame
that the initiator has just played or has recently
played,” which “represent[s] where the [initiator
PVR’s] playback is in the content at a particular time
which is current.” Pet. 59–60 (citing Ex. 1007, 10:19–
35, 12:5–36; Ex. 1009 ¶ 163).
For limitation 1[e], which recites “determining a
master device time domain, a slave device time
domain, and a source time domain,” Petitioner
asserts, and we agree, that Janevski discloses that
the determination of the time misregistration
between initiator and participant PVRs discloses
their respective time domains relative to each other.
Pet. 61 (citing Ex. 1007, 8:53–10:20, 11:52–12:4; Ex.
1009 ¶ 166). Petitioner further asserts, and we agree,
that Janevski’s disclosed capability to find and record
a television program necessarily shows that the PVR
has an indication of the time domain of the service
provider, thus disclosing the “source time domain.” Id.
at 62 (citing Ex. 1007, 1:13–24 (“PVRs may be
programmed to automatically find and record a user’s
favorite television program or programs . . . .”)). Dr.
Chertov provides additional support, testifying that a
person of ordinary skill in the art “would understand
that having an indication of the times-of-day when a

35a
service provider will be broadcasting television
programming is a necessary requirement for a PVR—
it would not be possible for a PVR to automatically
find and record the correct television program without
this information.” Ex. 1009 ¶ 167. We find that
Janevski inherently discloses the determination of a
source time domain in view of Janevski’s disclosure of
the capability to record television programs and Dr.
Chertov’s testimony that one of skill would know that
this functionality requires determination of the time
domain of the source service provider.
For limitation 1[f], which recites “determining
whether a time domain differential exists between the
master rendering time, the slave rendering time,”
Petitioner asserts, and we agree, that each
participant PVR in Janevski synchronizes its time
count with the initiator PVR’s time count and then
uses this adjusted “time count” during rendering.
Pet. 62 (citing Ex. 1007, 12:59–13:21). With this,
Petitioner argues, and we agree, that a time
differential is calculated between the amount of
content that has already been rendered by a master
device and that rendered by the slave device. Id.
Limitation 1[g] recites the step of “adjusting,
based on the received indication, the rendering of the
content at the . . . slave device within the slave device
time domain and in proportion to the time domain
differential when present to account for variation
between when the master device and the . . . slave
device to render content that should be rendered at
the same time.” Petitioner contends, and we agree,
that “rendering of the content” of the slave device “in
proportion” to the “time domain differential” is

36a
disclosed in Janevski by its synchronized time count
of the participant PVR with the initiator PVR time
count, and the adjusted time count used during
rendering. Pet. 63–64 (citing Ex. 1007, 12:59–13:21;
Ex. 1009 ¶¶ 170–173). Petitioner further asserts, and
we agree, that Janevski discloses that “after each
‘participant’ PVR calculates its ‘video time’
differential with the ‘initiator’ PVR, the ‘participant’
PVR compensates for the ‘video time’ differential by
adjusting its rendering of video content.” Id. at 64
(citing Ex. 1007, Abs., 3:52–57, 10:60–62, 13:24–30,
14:35–63; Ex. 1009 ¶ 173).
In sum, we agree with
Petitioner that Janevski discloses every limitation of
the preamble and steps of claim 1 and credit Dr.
Chertov’s supporting testimony (Ex. 1009 ¶¶ 153–
173), as it is consistent with the prior art disclosures.

ii. Patent Owner’s Arguments
Patent Owner argues that Janevski fails to
disclose limitations associated with two claim terms:
“device time” and “time domain.” We do not find these
arguments persuasive for the reasons discussed
below.

(a) Device Time
Patent Owner alleges that Janevski fails to
disclose a “device time” because its disclosed video
timer is not linked to any clock of the PVR or a device
within the DVR. PO Resp. 33. Patent Owner argues
that the video timer is a timer only and not a clock.
Id. Patent Owner contends that the purpose of the
device clock is to synchronize the operations on a
device, and Janevski’s video timer only discloses the
playout time of the content. Id. Patent Owner refers
to Janevski’s disclosure of the timer advancing or

37a
rolling back to move the location of video for playback.
Id. at 33–34 (citing Ex. 1007, 2:29–32). Patent Owner
additionally asserts that Janevski recognizes that its
synchronization method does not use a device clock,
and instead is “based on the differences in the playout
time within the video to synchronize multiple PVRs.”
Id. at 34 (citing Ex. 1007, 8:53–56, 8:63– 10:3). Patent
Owner further alleges that Janevski describes both
“timers” and “clocks” and uses them differently; with
that, Patent Owner alleges that timers are linked to
the time in a video to current playback, but not to
broadcast of clock times to synchronize devices. PO
Sur-Reply 21–22 (citing Ex. 1007, 8:48–52).
In sum, Patent Owner argues that Janevski’s
video timer: (i) is not linked to any clock of the PVR
or a device within the PVR; (ii) is not a clock; and (iii)
is only disclosed as the playout time for content.
These arguments are based on attempts to add
limitations to the claim term and overlook Janevski’s
disclosures. Janevski is directed, in significant part,
to timer synchronization of the “respective timers of
the video timers” of the PVRs. See Ex. 1007, 8:65–
10:20, Fig. 4. Claim 1 recites that the respective
master and slave devices have “a device time,” which
is construed as “the time as indicated by a designated
clock (e.g., system clock) of the rendering device.” See
supra Section II.B.
We agree with Petitioner’s
assertion that a “device time” does not have to be a
time indicated by either a “system clock” or a “device
clock” under that interpretation; rather, the device
time can be rendered by any designated clock, with a

38a
“system clock” serving as only one example.8 See Pet.
Reply 23. Moreover, we agree with Petitioner that,
under the claim interpretation adopted, “device time”
does not have to perform a specific function, short of
reflecting the device time. See id.
Janevski discloses its “message flow design” is to
“determine the misalignment, if any, in the respective
timings of the video timers 212 of two PVRs.” Ex.
1007, 8:39–41. As part of synchronization, messaging
of times (shown in hours (“H”), minutes (“M”), and
seconds (“S”) in Figure 4), according to video timers
212 of the respective PVRs, is exchanged. See e.g., Ex.
1007, 9:15–29, Fig. 4 (reproduced supra p. 24).
Although the video timer may also provide the time
for how long the PVR has been playing the video, it
also provides a device time under this disclosure of
Janevski.
Dr. Chertov provides testimony,
unrebutted by Dr. Hashmi, that the PVR video timer
of Janevski amounts to a clock of the PVR, and the
“time count” rendered by the video timer is device
time (Ex. 1009 ¶¶ 102, 157, 159). This testimony is
supported by the transmissions of times represented
in hours, minutes, and seconds as described and
shown in Janevski’s Figure 4. We agree with
Petitioner that Janevski uses “clock” and “timer”
synonymously in descriptions of time synchronization
implementations, rather than drawing distinctions in
8 Even if we were to adopt Patent Owner’s proposed claim
construction of “device time” as “time indicated by a designated
clock of the [master/slave] device” (supra Section II.B), the same
Patent Owner argument would be at issue, that is, whether
Janevski discloses “device time” as it is rendered by any
designated clock.

39a
the use of the terms, as Patent Owner argues. See Pet.
Reply 24 (citing Ex. 1007, 8:39–649); see also PO SurReply 21–22 (citing Ex. 1007, 8:48–52). Additionally,
under the claim construction adopted here for “device
time,” which is not limited to a specific type of clock
(short of it being “designated”), and under the
ordinary meaning of a “clock” as “a device for
measuring and indicating time” (Ex. 1023, 3), we find
that Dr. Chertov’s testimony regarding Janevski’s
disclosure of “device time” is consistent with the
term’s interpretation.
Patent Owner also asserts that Petitioner has not
shown that the “query time stamp” constitutes a
device time. PO Resp. 35. Patent Owner argues that
“Janevski does not indicate if the query time stamp
contains a time indicated by a designated clock of any
particular device, such as the initiator device.” Id.
Patent Owner contends that the query time stamp
references the current location of the query frame in
the video. Id. Patent Owner asserts that in Janevski,
the query frame and its time stamp represent “where
the playback is in the content at a particular time
which is current,” and the destination PVR compares
that time stamp with the time stamps for other
frames to determine the right frame to select for
playback, so there is no disclosure of a device time
within the query time stamp. Id. at 36 (citing Ex.
1007, 12:10–11, 14:1–14).
On this issue as well, Patent Owner attempts to
9 Petitioner cites to Exhibit 1001 in its Reply; however, the
Reply’s discussion is directed to the video timers in Janevski (Ex.
1007). Pet. Reply 24. Thus, it appears that the Reply’s citation
should have been to Janevski.

40a
read in additional limitations into the claim. Here,
for limitation 1[d], Petitioner refers to Janevski’s
initiator PVR sending a status message with a query
time stamp for “a frame that the initiator has just
played or has recently played.” See Pet. 59–60 (citing
Ex. 1007, 10:19–35, 12:5–36). Dr. Chertov testifies
that the transmission of the query time stamp
represents the functionality of sending an indication
of when the rendering occurs corresponding to the
master rendering time. Ex. 1009 ¶ 163. The evidence
supports that the query time stamp is part of a
message that is generated to perform time
synchronization and the time in the query time stamp
is similarly set to other time stamps as shown in
Figure 4 of Janevski (Ex. 1007, 10:4–22, Figs. 4, Fig.
5), which as discussed above represents a device time,
and additionally supports that the query time stamp
represents when rendering occurs corresponding to
the master rendering time.
And, there is no
requirement that the rendering time has to be
measured by a certain kind of clock.
We find the evidence provided by Petitioner
demonstrates that
Janevski discloses “device time” as claimed.

(b) Time Domain
Patent Owner argues that the recited “time
domain” is tied into a device time, and for reasons
similar to the “device time” limitations discussed
above, Patent Owner asserts Petitioner has failed to
show that Janevski discloses the “time domain”
limitations of the challenged claims. PO Resp. 37.
Patent Owner asserts that “time domain” refers to the
way a device clock tracks time, and is therefore linked

41a
to the “clock of a device.” Id. Patent Owner argues
that “[t]he video timer does not indicate a device time,
but how long the PVR has been playing the video for.
The query timestamp likewise does not indicate the
initiator’s device time; it is only affiliated with a
particular frame in the video.” Id. at 38.
Here, Patent Owner’s arguments are directed to
alleged deficiencies in Janevski’s disclosures related
to the “device time” limitations, which we addressed
above, and found unpersuasive. We note also that the
“master time domain” and “slave time domain” of
limitation 1[e] are addressed by Petitioner by reliance
on
Janevski’s
determination
of
the
time
misregistration between initiator and participant
PVRs, which is asserted to disclose the respective
time domains relative to each other. Pet. 61 (citing
Ex. 1007, 8:53–10:20, 11:52–12:4; Ex. 1009 ¶ 166). We
have addressed the manner of the determination of
the time misregistration above, and find Janevski’s
disclosures evince the respective time domains.
iii. Summary
For the reasons discussed above, Petitioner has
shown by a preponderance of the evidence that claim
1 of the ’791 patent is anticipated by Janevski.

b. Independent Claim 23
Petitioner asserts that Janevski discloses every
limitation of claim 23. Pet. 38–46. Petitioner asserts,
and we agree, that Janevski discloses the preamble’s
method for synchronizing the rendering of content at
devices, which are nodes of a network, which have a
device time and a rendering time, where the device

42a
time is in its time domain. 10 Id. at 38. Petitioner
references Janevski’s disclosure of rendering devices,
i.e., PVRs, which are mapped as nodes, which are
interconnected by an Internet network. Id. (citing Ex.
1007, 1:8–11, 6:4–39, 6:45–51, Abs., Fig. 1). Petitioner
asserts, and we agree, that the PVR has a “time
count,” provided by the PVR “video timer,” which is
the claimed “device time” that is in a “time domain” of
the PVR. Id. (citing Ex. 1007, 7:51–62, 8:39–10:3,
Figs. 2, 4). Petitioner also contends, and we agree,
that Janevski discloses that each PVR discloses
tracking the amount of content that has been
rendered in terms of “the time or frame into the
program,” which is the claimed rendering time. Id.
(citing Ex. 1007, 1:65–2:5, 7:41–50; Ex. 1006, 147).
Limitation 23[a] is the step of designating a
master device that has a master rendering time and
a slave device having a slave rendering time, where
Petitioner identifies the PVR that initiates a
“synchronized PVR viewing system” as the initiator
or master device. Pet. 40 (citing Ex. 1007, Abs., 6:4–
25, 7:36–39, 8:39–10:3, Fig. 1).
Other PVRs
participating are the “participant” PVRs, which are
mapped as the slave devices. See id. Petitioner
asserts, and we agree, that Janevski discloses that
each PVR keeps track of the amount of content of a
video program that has been rendered in terms of “the
time or frame into the program,” which is the claimed
rendering time. Id. (citing Ex. 1007, 1:65–2:5, 7:41–
50; Ex. 1009 ¶ 105).

10 For purposes of this Decision, we assume, without deciding,
that the preamble of claim 23 is limiting.

43a
Limitation 23[b] is the step of exchanging time
domain information between the master and slave
devices. Petitioner asserts, and we agree, that
Janevski discloses a message flow for exchanging
“synchronization messages” between the master and
slave PVRs that include information regarding the
respective “time counts.” Pet. 41 (citing Ex. 1007,
8:39–10:3, Fig. 4). Petitioner asserts, and we agree,
that Janevski also includes the exchange of time
domain information by broadcasts of respective clock
values periodically to maintain synchronization or
with relays of synchronization messages. Id. at 41–42
(citing Ex. 1007, 8:53–64; Ex. 1009 ¶ 109).
Limitation 23[c] recites “calculating a time
domain difference between the master rendering time
of the master device and the slave rendering time of
the slave device based on a master device time
adjusted for a difference in time domains of the slave
device and the master device,” which Petitioner
asserts, and we agree, is disclosed in Janevski. Pet.
42–45 (citing Ex. 1009 ¶¶ 110–116). Petitioner relies
upon Janevski’s disclosure that each “participant”
PVR periodically determines whether there is any
misalignment between the “initiator” PVR’s
rendering and the “participant” PVR’s rendering
using a two-phase process that involves a
determination of two separate time differentials
between the PVRs. Id. at 42 (citing Ex. 1007, Abs.,
7:36–50, 10:36–60, 12:59–13:29, 15:32–33). In the
first phase, PVRs perform a time synchronization
exchange to determine a differential in time counts.
Id. at 43 (citing Ex. 1007, Abs., 8:39–10:3, 11:43–12:4).
Then, in the second phase, a status message on time

44a
misregistration is sent between the PVRs that
includes a query signature and query time stamp. Id.
at 43 (citing Ex. 1007, Abs., 7:36–50, 10:19–35, 12:5–
36). The time misregistration is compensated for by
adjusting the “time count” (Ex. 1007, 12:59–13:21),
and the participant PVR uses its adjusted time count
along with the other information included in the
status message to calculate a differential between the
video frames that have been rendered by the PVRs,
which may be represented in terms of video time. Id.
(citing Ex. 1007, 10:36–60, 13:24–14:63).
For limitation 23[d], which recites “rendering
content at the slave device to account for the
calculated time domain difference,” Petitioner
asserts, and we agree, that Janevski discloses this
limitation by the functionality that synchronizes the
time counts of the PVRs and then uses the adjusted
time count during rendering. Pet. 45 (citing Ex. 1007,
12:59– 13:21). Petitioner also refers to Janevski’s
disclosure of calculating a video time differential
between PVRs and adjusting the rendering of video
content. Id. (citing Ex. 1007, Abs., 3:52–57, 10:60–62,
13:24–30, 14:35–63).
Patent Owner presents no additional arguments
on the merits of the prior art disclosures of these claim
limitations, beyond the alleged deficiencies in
Janevski’s disclosures of the recited “device time” and
“time domain,” which we addressed above in our
analysis of claim 1. See PO Resp. 32–38.
For the reasons discussed above, Petitioner has
shown by a preponderance of the evidence that claim
23 of the ’791 patent is anticipated by Janevski.

c. Independent Claim 16

45a
Independent claim 16 contains claim limitations
that are similar to those in claim 1. Compare Ex. 1001,
8:25–53, with Ex. 1001, 9:45–10:6. We agree with
Petitioner that Janevski discloses the limitations of
claim 16 for the reasons discussed above for claim 1.
See Pet. 47–54.
Patent Owner presents no additional arguments
on the merits of the prior art disclosures of these claim
limitations, beyond the alleged deficiencies in
Janevski’s disclosures of the recited “device time” and
“time domain,” which we addressed above in our
analysis of claim 1. See PO Resp. 32–38.
For the reasons discussed above, Petitioner has
shown by a preponderance of the evidence that claim
16 of the ’791 patent is anticipated by Janevski.

d. Claims 2 and 3
Claim 2 depends from claim 1, and includes the
additional limitation that “the indication sent from
the master device to the at least one slave device
includes the master device time at which the master
device renders content corresponding to the master
rendering time.” Ex. 1001, 8:54–57. Claim 3 depends
from claim 2 and includes the additional limitation
that “the indication sent from the master device to the
at least one slave device includes the master
rendering time.” Id. at 8:58–60. Petitioner asserts,
and we agree, that Janevski discloses the limitations
of claims 2 and 3 by its disclosure of the “initiator”
PVR (the recited “master device”) sending each
“participator” PVR (the recited “slave devices”) a
status message that includes a query time stamp for
“a frame that the initiator has just played or has
recently played,” which “represent[s] where the

46a
[initiator PVR’s] playback is in the content at a
particular time which is current.” See Pet. 49– 50, 65
(citing Ex. 1007, 10:19–35, 12:5–6; Ex. 1009 ¶¶ 133–
34, 175–176).
Patent Owner presents no additional arguments
on the merits of the prior art disclosures of the claim
limitations of dependent claims 2 and 3, beyond those
arising from alleged deficiencies in Janevski’s
disclosures of the limitations of claim 1, which we
addressed above. See PO Resp. 32–38. For the
reasons discussed above, Petitioner has shown by a
preponderance of the evidence that claims 2 and 3 of
the ’791 patent are anticipated by Janevski.

e. Claim 6
Claim 6 depends from claim 1 and includes the
additional limitation “wherein the determining the
time domains of the master device, the slave device,
and the source includes determining the time
domains relative to another device by sending the
send and receive times of at least one of the master
device, the slave device, and the source to the other
device.” Ex. 1001, 8:65–9:3. Petitioner asserts, and
we agree, that Janevski discloses this claim limitation
in its description of the time synchronization message
flow by, at least, the disclosure of a participant PVR
sending the “initiator” PVR a “reply synchronization
message 404” that includes both a receive time
(referred to as “time B”) and a send time of the
“participant” PVR (referred to as “time C”). See Pet.
65–66.
Petitioner also relies upon Janevski’s
disclosure of messaging, as depicted in Figures 4 and
5. Id.
Patent Owner presents no additional arguments

47a
on the merits of the prior art disclosures of these claim
limitations, beyond those arising from alleged
deficiencies in Janevski’s disclosures of the
limitations of claim 1, which we addressed above. See
PO Resp. 32–38.
For the reasons discussed above, Petitioner has
shown by a preponderance of the evidence that claim
6 of the ’791 patent is anticipated by Janevski.

f. Claim 7
Claim 7 further depends from claim 6 and
includes additional limitations directed to calculating
a “first difference” and “second difference” between
receive and send times and associated summing. Ex.
1001, 9:4–12. Petitioner asserts, and we agree, that
Janevski discloses these claim limitations by its
disclosures associated with time misregistration
between the initiator and participant PVRs’ time
count. See Pet. 66–67.
Patent Owner presents no additional arguments
on the merits of the prior art disclosures of these claim
limitations, beyond those arising from alleged
deficiencies in Janevski’s disclosures of the
limitations of claim 1, which we addressed above. See
PO Resp. 32–38.
For the reasons discussed above, Petitioner has
shown by a preponderance of the evidence that claim
7 of the ’791 patent is anticipated by Janevski.

g. Claim 8
Claim 8 further depends from claim 7 and
includes the additional limitation directed to
“conforming the slave rendering time to the master

48a
device rendering time so that the master device time
and the at least one slave device operate in the same
time domain; and deducting or adding the time
domain differential to the same time domain.” Ex.
1001, 9:13–20. Petitioner asserts, and we agree, that
Janevski discloses these claim limitations by the
disclosure of participant PVRs periodically time
synchronizing time counts with the initiator PVR
time count to account for the calculated time
misregistration, which acts to deduct or add the time
count differential. Pet. 68 (citing Ex. 1007, 12:59–
13:21; Ex. 1009 ¶ 184).
Patent Owner presents no additional arguments
on the merits of the prior art disclosures of these claim
limitations, beyond those arising from alleged
deficiencies in Janevski’s disclosures of the
limitations of claim 1, which we addressed above. See
PO Resp. 32–38.
For the reasons discussed above, Petitioner has
shown by a preponderance of the evidence that claim
8 of the ’791 patent is anticipated by Janevski.

h. Claim 9
Claim 9 depends from claim 1 and includes the
additional limitation that “the sending of the
indication from the master device to the slave devices
occurs at various times so that the at least one slave
device can adjust the rendering of the content as
appropriate.” Ex. 1001, 9:21–24. Petitioner asserts,
and we agree, that Janevski discloses that the status
message containing the query time stamp is
periodically sent by the initiator PVR to ensure that
the respective PVRs remain synchronous. Pet. 68–69
(citing Ex. 1007, 7:36–38, 15:32–33; Ex. 1009 ¶ 185).

49a
Patent Owner presents no additional arguments
on the merits of the prior art disclosures of these claim
limitations, beyond those arising from alleged
deficiencies in Janevski’s disclosures of the
limitations of claim 1, which we addressed above. See
PO Resp. 32–38.
For the reasons discussed above, Petitioner has
shown by a preponderance of the evidence that claim
9 of the ’791 patent is anticipated by Janevski.

i. Claims 12 and 19
Claim 12 depends from claim 1 and includes the
additional limitation wherein “the content is sent
from different sources to the master device and the
slave devices.” Ex. 1001, 9:31–33. Claim 19 depends
from claim 16 and recites a similar limitation. Id. at
10:24–26. Petitioner asserts, and we agree, that
Janevski discloses this claim limitation by its
disclosure that the initiator and participant PVRs
each receive respective broadcasts of video content
that may be sent by “different cable or satellite
providers.” Pet. 54– 55, 69 (citing Ex. 1007, 3:13–16,
6:5–39; Ex. 1009 ¶ 51). Petitioner also relies on
Janevski’s disclosure that the video content may be
sent by other types of sources such as Internet
sources, DVD players, and/or VHS players. Id. at 55
(citing Ex. 1007, 1:13–17, 16:6–16).
Patent Owner presents no additional arguments
on the merits of the prior art disclosures of these claim
limitations, beyond those arising from alleged
deficiencies in Janevski’s disclosures of the “device
time” and “time domain” limitations recited in
independent claims 1 and 16, which we addressed
above in our analysis of claim 1. See PO Resp. 32–38.

50a
For the reasons discussed above, Petitioner has
shown by a preponderance of the evidence that claims
12 and 19 of the ’791 patent are anticipated by
Janevski.

j. Claims 24 and 25
Claim 24 depends from claim 23 and additionally
recites “including sending a master device time and
the master rendering time to each slave device for use
in calculating the time domain difference,” and claim
25 depends from claim 24 and includes the limitation
“wherein the master device sends the master device
time and the master rendering time to the slave
devices.” Ex. 1001, 10:53–58. Petitioner asserts, and
we agree, that Janevski discloses that the initiator
PVR sends the participator PVRs a status message
that includes information used for synchronizing the
PVRs’ renderings, which includes an indication of the
time into the video program and a query time stamp
for a recently played video frame. Pet 46 (citing Ex.
1007, Abs., 7:36–50, 10:19–35, 12:5–36; Ex. 1009 ¶
120).
Patent Owner presents no additional arguments
on the merits of the prior art disclosures of these claim
limitations, beyond those arising from alleged
deficiencies in Janevski’s disclosures of the “device
time” and “time domain” limitations recited in
independent claim 23, which we addressed above in
our analysis of claim 1. See PO Resp. 32–38.
For the reasons discussed above, Petitioner has
shown by a preponderance of the evidence that claims
24 and 25 of the ’791 patent are anticipated by
Janevski.

51a

B. Alleged Obviousness of Claims 1–3, 6–9, and 12
Over Janevski and Schneidewend, or Over Janevski
Alone
1. Obviousness, Generally
patent claim is unpatentable under 35 U.S.C. §
103(a) if the differences between the claimed subject
matter and the prior art are such that the subject
matter, as a whole, would have been obvious at the
time the invention was made to a person having
ordinary skill in the art to which said subject matter
pertains. KSR Int’l Co. v. Teleflex Inc., 550 U.S. 398, 406
(2007). The question of obviousness is resolved on the
basis of underlying factual determinations including
(1) the scope and content of the prior art; (2) any
differences between the claimed subject matter and
the prior art; (3) the level of ordinary skill in the art;
and (4) objective evidence of nonobviousness. Graham
v. John Deere Co., 383 U.S. 1, 17–18 (1966).
To be relevant, evidence of nonobviousness must
be commensurate in scope with the claimed invention.
In re Huai–Hung Kao, 639 F.3d 1057, 1068 (Fed. Cir.
2011). Thus, to be accorded substantial weight, there
must be a nexus between the merits of the claimed
invention
and the
evidence
of
secondary
considerations. In re GPAC Inc., 57 F.3d 1573, 1580
(Fed. Cir. 1995). “For objective evidence of secondary
considerations to be accorded substantial weight, its
proponent must establish a nexus between the
evidence and the merits of the claimed invention.”
Kao, 639 F.3d at 1068. The stronger the showing of
nexus to the claimed invention, the greater the weight
accorded the objective indicia of nonobviousness.
Ashland Oil, Inc. v. Delta Resins & Refractories, Inc., 776

52a
F.2d 281, 306 (Fed. Cir. 1985).
We apply “a
[rebuttable] presumption of nexus for objective
considerations when the patentee shows that the
asserted objective evidence is tied to a specific product
and that product ‘is the invention disclosed and
claimed in the patent.’” WBIP, LLC v. Kohler Co., 829
F.3d 1317, 1329 (Fed. Cir. 2016).

2. Analysis
Petitioner contends that Janevski inherently
discloses the claim element of “determining . . . a
source time domain” as recited in claims 1–3, 6–9, and
12 in its anticipation challenges; however, to the
extent that there is disagreement, Petitioner also
relies upon obviousness under Janevski or the
combination of Janevski and Schneidewend to
demonstrate obviousness of these claims in the
alternative. Pet. 29, 69–70.
To support its contentions, Petitioner provides
explanations as to how Janevski and Schneidewend
are directed to, particularly, “determining . . . a source
time domain” of claim 1. Pet. 69–72. Petitioner refers
to Schneidewend, which is directed to receiving and
rendering video content from multiple sources, as is
Janevski, and its disclosures relating to a “digital
video receiving system” (“DVRS”) configured to
receive and render video content broadcasts from
multiple sources, and the use of the Program and
System Information Protocol for Terrestrial
Broadcast and Cable standard (“PSIP”) with the
broadcast of ancillary information, including “system
timing information providing a time clock reference
enabling determination of a time at which a specific
program is to be broadcast,” for the teaching of the

53a
limitation. Id. at 70 (quoting Ex. 1008, 1:19–55, 2:37–
44; citing Ex. 1008, 3:1–36). Dr. Chertov testifies that
a person of ordinary skill in the art would have had
reason to combine the teachings of Schneidewend
with Janevski in order to comply with the PSIP
standards and that such a combination would have
benefits, including avoidance of time clock
inaccuracies. Id. at 72 (citing Ex. 1008, 5:11–36; Ex.
1009 ¶¶ 198–199).
We agree with Petitioner that Schneidewend
teaches the source time domain limitation of the
claims and Petitioner has demonstrated articulated
reasoning with rational underpinnings to support the
combination of Schneidewend and Janevski. See KSR,
550 U.S. at 417 (2007) (“if a technique has been used
to improve one device, and a person of ordinary skill
in the art would recognize that it would improve
similar devices in the same way, using the technique
is obvious unless its actual application is beyond his
or her skill.” )
Patent Owner presents no arguments on the
merits of the prior art disclosures or teachings of
“source time domain,” which therefore stand
unrebutted, nor does Patent Owner present
arguments related to the rationale to combine
Janevski and Schneidewend. PO Resp. 13–41.
Patent Owner argues, however, that the claims
would not have been obvious in view of objective
evidence. PO Resp. 38. Patent Owner asserts that
there was unmet need for a solution to synchronize
across multiple devices the playback of audio and
video received from a source. Id. (citing Ex. 2001 ¶¶
26–30; Ex. 2009, 15; Ex. 2012, 37–38). Patent Owner

54a
refers to the Juno project with Intel that recognized
that synchronization of audio playback was an
unsolved problem at the time (late 2000 to early 2001)
and that synchronization would be difficult, at best,
to achieve. Id. at 39 (citing Ex. 2001 ¶¶ 29–30; Ex.
2009, 14–15; Ex. 2011, 37–38). Patent Owner argues
that, at that time, Intel had not solved this problem.
Id.
Petitioner argues, and we agree, that the evidence
of long-felt unmet need provided by Patent Owner is
insufficient. Pet. Reply 26. Rather than identifying a
long-term industry-wide need, the evidence provided
is limited to Patent Owner’s own evidence,
predominantly focused on the Intel project, with no
industry-wide evidence provided. Ex. 2001 ¶¶ 26–30;
Ex. 2009, 15. Moreover, Patent Owner’s identification
of the timeframe at issue is limited to the short-term
period of late 2000 to 2001. Id. This is insufficient to
demonstrate that there was an industry-recognized
long-felt need for the invention. Ecolochem, Inc. v. S.
Cal. Edison Co., 227 F.3d 1361, 1377 (Fed. Cir. 2000).
Patent Owner also contends that Intel’s
willingness to pay significant value for the Juno
project provides supporting evidence that the solution
was not obvious at the time. PO Resp. 39. Patent
Owner argues that the licensing of technology from
the patents flowing from BeComm’s innovations, of
which the instant patent is a part, are evidence of
nonobviousness. Id. at 40 (citing Ex. 2001 ¶ 10). It is
additionally argued that the success of Petitioner
(Sonos) is unlikely to have been achieved if it were
built on technology that had been obvious since 2001.
Id. at 40–41.

55a
We do not find persuasive Patent Owner’s
arguments of commercial success based on
Petitioner’s products, licensing of patents, or a
willingness to pay for technology development
because they are not supported by sufficient evidence,
and most notably, there is insufficient evidence
provided demonstrating a nexus with the claims of
the ’791 patent. “Evidence of [objective indicia] is only
relevant to the obviousness inquiry ‘if there is a nexus
between the claimed invention and the [objective
indicia].’” In re Affinity Labs of Tex., LLC, 856 F.3d 883,
901 (Fed. Cir. 2017) (quoting Ormco Corp. v. Align Tech.,
Inc., 463 F.3d 1299, 1312 (Fed. Cir. 2006)).
Here, there is no evidence provided by Patent
Owner to show that Petitioner’s products are covered
by the claims of the ’791 patent. See PO Resp. 40–41.
Nor does Patent Owner provide evidence that the
licenses granted to other companies were for products
that are covered by the claims of the ’791 patent. Id.
at 40; Ex. 2001 ¶ 10; Iron Grip Barbell Co. v. USA Sports,
Inc., 392 F.3d 1317, 1324 (Fed. Cir. 2004) (noting that
licenses “may constitute evidence of nonobviousness;
however, only little weight can be attributed to such
evidence if the patentee does not demonstrate a nexus
between the merits of the invention and the licenses
of record” (quoting In re GPAC Inc., 57 F.3d 1573, 1580
(Fed. Cir. 1995)). Finally, Patent Owner does not
provide an explanation of the nexus of the Intel Juno
project with the ’791 patent claims, and Patent
Owner’s allegation that the invention of the patent
was conceived after the Juno project had been
terminated cuts against a possible nexus. See PO
Resp. 19, 39–40. Thus, we cannot significantly credit

56a
the objective evidence alleged in view of the
deficiencies of supporting evidence.
Turning to the claim limitations, as discussed
above, for the “source time domain” limitation of claim
1 (supra pp. 27–28), we determined that the Petition
provides evidence that demonstrates that Janevski’s
capability to find and record a television program
necessarily shows that the PVR has an indication of
the time domain of the service provider, thus,
disclosing the “source time domain.” Also, based on
the Petition’s showing that Janevski discloses the
other limitations of claim 1 (supra pp. 25–34), we
determined that Petitioner has shown that Janevski
anticipates the claim. Further, as discussed above, in
view of the deficiencies of the supporting evidence, we
do not significantly credit the objective evidence of
record. Inasmuch as “anticipation is the epitome of
obviousness” (In re McDaniel, 293 F.3d 1379, 1385 (Fed.
Cir. 2002)), we find that claims 1–3, 6–9, and 12 are
rendered obvious by Janevski.
In addition, we agree with Petitioner’s showing,
discussed above, that the combination of Janevski
and Schneidewend teaches every limitation of claims
1–3, 6–9, and 12, as it is consistent with the prior art
disclosures and crediting Dr. Chertov’s supporting
testimony for the rationale to combine Schneidewend
and Janevski (Ex. 1009 ¶¶ 189–201). And, as
discussed above, in view of the deficiencies of the
supporting evidence, we do not significantly credit the
objective evidence of record. We, therefore, determine
that the Petition provides sufficient evidence
supporting the obviousness of claims 1–3, 6–9, and 12
over the combination of Janevski and Schneidewend.

57a
For the reasons discussed above, Petitioner has
shown by a preponderance of the evidence that claims
1–3, 6–9, and 12 of the ’791 patent are unpatentable
as obvious over Janevski alone and obvious over the
combination of Janevski and Schneidewend.

III. MOTION TO EXCLUDE
Petitioner moves to exclude Patent Owner’s
Exhibits 2002–2009, 2011–2078, and 2083–2088 due
to alleged lack of sufficient authentication and
Exhibits 2081 and 2082 as improperly incorporated
by reference. Mot. Ex. 1–7.
Petitioner argues that Exhibits 2002–2009, 2011–
2078, and 2083– 2088 lack sufficient authentication
because Patent Owner relies on the testimony of Mr.
Balassanian, one of the inventors, for authentication
of these exhibits. Mot. Ex. 2. Petitioner asserts that
although the testimony of a witness with personal
knowledge of an exhibit would normally be sufficient
to authenticate, that is not the situation here because
Patent Owner relies on these exhibits to prove the
invention predates the prior art, so independent
evidence of authentication is required besides
inventor testimony. Id. at 3.
Federal Rule of Evidence 901 requires that a
proponent need only “produce evidence sufficient to
support a finding that the item is what the proponent
claims it is” to meet its burden on authentication.
Fed. R. Evid. 901(a). Authenticity is, therefore, not
an especially high hurdle for a party to overcome. See
United States v. Patterson, 277 F.3d 709, 713 (4th Cir.
2002). We disagree with Petitioner that the only
evidence concerning authenticity of these Exhibits
that should be considered is Mr. Balassanian’s

58a
testimony. See Mot. Ex. 3. Mr. Balassanian testifies
that the majority of documents produced were from
records that included metadata records (Ex. 2001 ¶¶
91–166), and there is no dispute that the documents
were stored electronically. See Mot. Ex. Opp. 2. There
is also no dispute that Patent Owner provided the
BeComm demo laptop hard drive and a CD backup of
its CVS repository as well as documents in native
format to Petitioner’s forensic expert. See id. at 2–3.
Petitioner presents no contentions that the electronic
data associated with the exhibits at issue is suspect.
Mot. Ex. Reply 1–5. The only exhibit for which a
metadata record is not presented is an email (Ex.
2038), which Patent Owner argues is dated on its face
and discusses another exhibit (Exhibit 2037), which
has an associated metadata record. Mot. Ex. Opp. 9.
Here, document logs were produced (Ex. 2077),
albeit from files held by Mr. Balassanian, but
Petitioner was permitted to forensically examine the
electronic evidence, which includes date stamps and
other metadata. Under these circumstances, our view
is that the document logs provide additional support
for the authenticity of the exhibits, which we find to
be sufficient. Accordingly, we deny Petitioner’s Motion
to Exclude Exhibits 2002–2009, 2011–2078, and
2083–2088.
Exhibits 2081 and 2082 are claim charts that
allegedly explain Dr. Hashmi’s source code trace. We
have not relied on these exhibits in rendering this
Decision. Therefore, we dismiss as moot the Motion to
Exclude these Exhibits.

IV. CONCLUSION
For the foregoing reasons, we determine that

59a
Petitioner has demonstrated, by a preponderance of
the evidence, that claims 1–3, 6–9, 12, 16, 19, and 23–
25 are anticipated by Janevski; that claims 1–3, 6–9,
and 12 would have been obvious in view of Janevski;
and that claims 1–3, 6–9, and 12 would have been
obvious in view of Janevski and Schneidewend.

V. ORDER
Accordingly, it is
ORDERED that Petitioner has demonstrated by
a preponderance of the evidence that any one of
claims 1–3, 6–9, 12, 16, 19, and 23–25 of U.S. Patent
No. 7,391,791 B2 is unpatentable;
FURTHER ORDERED that the Motion to
Exclude Exhibits 2002–2009, 2011–2078, and 2083–
2088 is denied;
FURTHER ORDERED that the Motion to
Exclude Exhibits 2081 and 2082 is dismissed as moot;
and
FURTHER ORDERED that because this is a
Final Written Decision, parties to the proceeding
seeking judicial review of the decision must comply
with the notice and service requirements of 37 C.F.R.
§ 90.2.
PETITIONER:
Rory P. Shea
Cole B. Richter
George I. Lee
Michael P. Boyea
LEE SULLIVAN SHEA & SMITH LLP

60a
224 N Desplaines St, Suite 250
Chicago, Illinois 60661
shea@ls3ip.com
richter@ls3ip.com
lee@ls3ip.com
boyea@ls3ip.com
PATENT OWNER:
Christian Hurt
Kirk A. Voss
William E. Davis, III
THE DAVIS FIRM, PC
213 N. Fredonia Street, Suite 230
Longview, Texas 75601
churt@davisfirm.com
kvoss@davisfirm.com
bdavis@davisfirm.com

61a

APPENDIX C
UNITED STATES PATENT AND
TRADEMARK OFFICE
BEFORE THE PATENT TRIAL AND
APPEAL BOARD
____________
SONOS, INC.,
Petitioner,
v.
IMPLICIT, LLC,
Patent Owner.
____________
Case IPR2018-00767
Patent 8,942,252 B2
Before MICHELLE N. WORMMEESTER, SHEILA F.
McSHANE, and NABEEL U. KHAN, Administrative

Patent Judges.

KHAN, Administrative Patent Judge.
FINAL WRITTEN DECISION
Determining All Challenged Claims Unpatentable

62a

35 U.S.C. § 318(a)
I. INTRODUCTION

A. Background
Sonos, Inc. (“Petitioner”) filed a Petition (Paper 1,
“Pet.”) to institute an inter partes review of claims 1–
3, 8, 11, and 17 (the “challenged claims”) of U.S.
Patent No. 8,942,252 B2 (Ex. 1001, “the ’252 Patent”).
Implicit, LLC (“Patent Owner”) timely filed a
Preliminary Response. Paper 6 (“Prelim. Resp.”). On
September 19, 2018, upon consideration of the
Petition, the Preliminary Response, and the evidence
cited by the parties, we determined that Petitioner
established a reasonable likelihood that it would
prevail with respect to at least one of the claims
challenged in the Petition and instituted review to
determine the patentability of the challenged claims
on all grounds. Paper 8 (“Dec. Inst.”), 1.
Subsequent to institution, Patent Owner filed a
Patent Owner Response (Paper 9, “PO Resp.”).
Petitioner filed a Reply (Paper 17, “Pet. Reply”)
thereto, and Patent Owner filed a Sur-Reply (Paper
22, “PO SurReply”). Petitioner supports its challenge
with the Declaration and Rebuttal Declaration of
Roman Chertov, Ph.D. (Exs. 1009, 1022). Patent
Owner supports its Response with the Declarations of
Edward Balassanian (Ex. 2001), and Atif Hashmi,
Ph.D. (Ex. 2080).
Further, Petitioner filed a Motion to Exclude.
Paper 30.
Patent Owner filed a Response to
Petitioner’s Motion to Exclude (Paper 33) and
Petitioner filed a Reply in support of its Motion to

63a
Exclude (Paper 34). We address these papers below.
An oral hearing was held on June 17, 2019, and
the hearing transcript is included in the record.
Paper 39 (“Tr.”).
We have jurisdiction under 35 U.S.C. § 6. This
Final Written Decision, issued pursuant to 35 U.S.C.
§ 318(a) and 37 C.F.R. § 42.73, addresses issues and
evidence raised during the inter partes review. For
the reasons that follow, Petitioner demonstrates by a
preponderance of the evidence that claims 1–3, 8, 11,
and 17 of the ʼ252 Patent are unpatentable.

B. Related Proceedings
The parties inform us that the ʼ252 Patent is
asserted in Implicit, LLC v. Sonos, Inc., No. 1:17-cv00259-LPS (D. Del.). Pet 2; Paper 5, 2.
Additionally, Patent Owner identifies Implicit,
LLC v. D&M Holdings U.S. Inc., No. 1:17-cv-00258LPS (D. Del) as a related matter. Paper 5, 2.
C. The ʼ252 Patent
The ʼ252 Patent is generally directed to
“rendering of content at multiple rendering devices in
a synchronized manner.” Ex. 1001, 1:18–19.
The ʼ252 Patent explains that a multimedia
presentation may include different types of content,
such as video, audio, and text, that are rendered on
different devices (e.g., a video display and a stereo
system). Id. at 1:23–25. However, their rendering
often needs to occur in a synchronized manner
because the video, audio, and text content may
correspond with each other.
Id. at 1:25–31.
Rendering content on different devices in a
synchronized manner may be difficult, however,

64a
because the devices may each have different time
domains or system clocks that operate at slightly
different frequencies. Id. at 1:40–44. This can lead
video and audio content to gradually appear to be out
of synchronization with each other. Id. at 1:44– 46.
The ʼ252 Patent provides a method and system for
“synchronizing the rendering of content at various
rendering devices.” Id. at 2:17–18. In this method,
“each device has a device time and a rendering time.”
Id. at 2:18– 20. “The device time is the time as
indicated by a designated clock (e.g., system clock) of
the rendering device. The rendering time is the time
represented by the amount of content that has been
rendered by that rendering device.” Id. at 2:20–23.
For example, if a rendering device is displaying 30
frames a second, then after 450 frames have been
rendered, the rendering time will be 15 seconds. The
corresponding device time may be 30 minutes and 15
seconds, if the device was initialized 30 minutes
before rendering began. Id. at 2:23–32. “The
synchronization system designates one of the
rendering devices as a master rendering device and
designates all other rendering devices as slave
rendering devices. Each slave rendering device
adjusts the rendering of its content to keep it in
synchronization with the master rendering device.”
Id. at 2:33–38. The master rendering device sends
messages with its device and rendering time to the
slave devices, which determine whether they are
synchronized with the master device and determine
the differential if they are not synchronized. Id. at
2:38–43. This determination can be made in a variety
of ways that involve comparisons between the

65a
rendering times of the master and slave and the
device times of the master and slave. Id. at 2:46–65.
The time differentials between master device time
and slave device time can be smoothed using various
techniques such as averaging the last few time
differentials using a decaying function to limit the
impact of the oldest time differential. Id. at 7:16–26.
Once the device and rendering time differentials are
known, the slave rendering devices may adjust their
rendering of content as appropriate to compensate for
the difference. Id. at 4:24–40.

D. Illustrative Claim
Of the challenged claims, claims 1 and 11 are
independent claims. Claims 2, 3, and 8 depend from
claim 1 and claim 17 depends from claim 11.
Claim 1, reproduced below, is illustrative:
1. A method comprising:
a master rendering device rendering a first
content
stream; and
sending, from the master rendering device to a
first one
of a plurality of slave devices, a plurality of
master rendering times indicative of statuses of the
rendering the first content stream at the master
rendering device at different times;
wherein the first slave device is configured to
smooth a
rendering time differential that exists between
the master rendering device and the first slave device
in order to render a second content stream at the first

66a
slave device synchronously with the rendering of the
first content stream at the master rendering device,
wherein smoothing the rendering time differential
includes calculations using the plurality of master
rendering times.

E. Asserted Grounds of Unpatentability
Petitioner challenges claims 1–3, 8, 11, and 17 of
the ʼ252 Patent on the following grounds:
Ground

Basis

Challenged
Claims

1

§ 103(a)

1–3, 8, 11,
and 17

Janevski1

2

§ 103(a)

1–3, 8, 11,
and 17

Janevski and
Azevedo2

3

§ 103(a)

1–3, 8, 11,
and 17

Janevski and
Mills3

4

§ 103(a)

1–3, 8, 11,
and 17

Janevski and
Berthaud4

5

§ 103(a)

1–3, 8, 11,

Janevski and

Reference(s)

Janevski, U.S. Patent No. 7,269,338, issued Sept. 11, 2007
(Ex. 1007, “Janevski”).
2 Azevedo, Fault-Tolerant Clock Synchronization for
Distributed Systems with High Message Delay Variation,
IEEE Workshop on Fault-Tolerance Par. and Dist. Syst.,
(1994) (Ex. 1010, “Azevedo”).
3 Mills, Network Time Protocol (Version 3) Specification,
Implementation and Analysis, Network Working Group,
University of Delaware (March 1992) (Ex. 1011, “Mills”).
4 Jean-Marc Berthaud, Time Synchronization Over Networks
Using Convex Closures, IEEE/ACM Transactions on
Networking (Apr. 2000) (Ex. 1012, “Berthaud”).
1

67a

6

§ 103(a)

and 17

Eidson5

1–3, 8, 11,
and 17

Janevski and
Baumgartner6

II. DISCUSSION

A. Level of Ordinary Skill
Petitioner proposes that a person of ordinary skill
in the art “would have the equivalent of a four-year
degree from an accredited institution in computer
science, computer engineering, electrical engineering,
or the equivalent, and approximately 2-4 years of
professional experience in the fields of networked
systems and networked-based applications, or an
equivalent level of skill and knowledge.” Pet. 24 n.2.
Patent Owner does not provide an alternative
proposal for the level of ordinary skill and Dr. Hashmi
does not offer an opinion on a proposed level of
ordinary skill. See Ex. 2080 ¶ 16. For purposes of
this Decision, we adopt Petitioner’s proposed level of
ordinary skill as it is consistent with the prior art of
record and the relevant field, and also reflects the
necessary level and type of education and practical
experience for one of ordinary skill in the art.

B. Claim Interpretation
In an inter partes review, we construe claim
terms in an unexpired patent according to their
broadest reasonable construction in light of the
specification of the patent in which they appear. 37
C.F.R. § 42.100(b) (2017); Cuozzo Speed Techs., LLC
Eidson, U.S. Patent No. 6,278,710, issued Aug. 21, 2001 (Ex.
1013, “Eidson”).
6 Baumgartner, U.S
5

68a

v. Lee, 136 S. Ct. 2131, 2144–46 (2016) (upholding the
use of the broadest reasonable interpretation
standard).7 Consistent with the broadest reasonable
construction, claim terms are presumed to have their
ordinary and customary meaning as understood by a
person of ordinary skill in the art in the context of the
entire patent disclosure. In re Translogic Tech., Inc.,
504 F.3d 1249, 1257 (Fed. Cir. 2007). Only terms that
are in controversy need to be construed, and only to
the extent necessary to resolve the controversy. See

Nidec Motor Corp. v. Zhongshan Broad Ocean Motor
Co., 868 F.3d 1013, 1017 (Fed. Cir. 2017) (stating that

“we need only construe terms ‘that are in controversy,
and only to the extent necessary to resolve the
controversy’” (quoting Vivid Techs., Inc. v. Am. Sci. &
Eng’g, Inc., 200 F.3d 795, 803 (Fed. Cir. 1999))), cert.
denied, 138 S. Ct. 1695 (Apr. 30, 2018).
Petitioner proposes constructions for the
following terms: “device time,” “rendering time,”
sending/receiving “a plurality of master rendering
times,” “smooth a rendering time differential,”
“determining a smoothed rendering time differential,”
and “window.” Pet. 18–23. Patent Owner explicitly
disputes the construction of “device time” in its
Response, but does not otherwise raise any specific,
substantive objections to Petitioner’s other proposed
7

A recent amendment to this rule does not apply here because
the Petition was filed on March 9, 2018, which is prior to the
November 13, 2018 change in the standard. See Changes to
the Claim Construction Standard for Interpreting Claims in
Trial Proceedings Before the Patent Trial and Appeal Board,
83 Fed. Reg. 51,340 (Oct. 11, 2018) (amending 37 C.F.R. §
42.100(b) effective November 13, 2018).

69a
constructions. See PO Resp. 13–14, 38–39. We
determine that other than “device time,” an explicit
construction of the claim terms for which Petitioner
proposes constructions is not necessary for purposes
of this Decision.

1. “device time”
Petitioner proposes the term “device time” should
be construed as “a time indicated by any clock of a
given rendering device.” Pet. 18. Patent Owner
argues “device time” should be construed as a “time
indicated by a designated clock of the [master/slave]
device.” PO Resp. 39. Patent Owner argues this
construction “is sourced directly from the
specification,” which, according to Patent Owner,
states that “[t]he device time is the time as indicated
by a designated clock (e.g., system clock) of the
rendering device.” Id. Petitioner argues that, under
the broadest reasonable interpretation standard,
there is no difference in scope between the two
proposed constructions because, even under Patent
Owner’s construction, there is no limitation on what
kind of clock can be “a designated clock.” Pet. Reply
26.
“In claim construction, [the Federal Circuit] gives
primacy to the language of the claims, followed by the
specification.” Tempo Lighting Inc. v. Tivoli LLC, 742
F.3d 973, 977 (Fed. Cir. 2014) (citing In re Morris, 127
F.3d 1048, 1056 (Fed. Cir. 1997)). The ʼ252 Patent
makes clear “[t]he device time is the time as indicated
by a designated clock (e.g., system clock) of the
rendering device.” Ex. 1001, 2:20–21. This statement
from the ʼ252 Patent, which we take to be a clear
definition of the term, is cited by both parties in

70a
support of their respective constructions. Thus, we
adopt it as our construction of the term and construe
“device time” as “the time as indicated by a designated
clock (e.g., system clock) of the rendering device.”

C. Antedating Janevski
Petitioner argues claims 1–3, 8, 11, and 17 would
have been obvious over Janevski and over Janevski
combined with the other cited references. Pet. 24–26.
Patent Owner argues Janevski is not prior art to the
ʼ252 Patent. PO Resp. 14. For the reasons set forth
below, we are not persuaded that the inventor’s
testimony is corroborated adequately, and we
determine that Patent Owner has not met its burden
of producing sufficient evidence to antedate Janevski.

1. Patent Owner’s Contentions
The Janevski reference was filed on December 11,
2001 and does not claim an earlier effective filing
date. Ex. 1007, at [22]. The provisional patent
application from which the ʼ252 Patent claims
priority was filed six days later on December 17, 2001.
Ex. 1001, at [60]; Pet. 7. Patent Owner alleges that
“[p]rior to December 11, 2001, . . . the inventors
conceived of the inventions of the Challenged Claims,
and those inventions were reduced to practice in time
to remove Janevski as a prior art reference.” PO
Resp. 14. In support of this contention, Patent Owner
provides a declaration of Mr. Edward Balassanian,
one of the two named inventors of the ʼ252 Patent (Ex.
2001), certain internal documents from BeComm (the
predecessor of Patent Owner, Implicit, LLC), and the
declaration of Patent Owner’s expert, Dr. Hashmi
(Ex. 2080). Patent Owner alleges that the internal
BeComm documents and Dr. Hashmi’s expert

71a
declaration corroborate Mr. Balassanian’s testimony
that he and Mr. Bradley (the other named inventor)
conceived of the inventions prior to December 11,
2001, and timely reduced them to practice. PO Resp.
15.

a. Conception
In its Response, Patent Owner describes the
“Juno” project as the genesis of what later became the
invention of the ʼ252 Patent. PO Resp. 19 (citing Ex.
2001 ¶¶ 26–32). According to Patent Owner, the Juno
project began in late 2000 and Mr. Balassanian was
involved as the President and CEO of BeComm. PO
Resp. 19 (citing Ex. 2001 ¶ 32; Ex. 2011 at 8). Early
Juno documents show that as of December 2000,
BeComm believed “true synchronization [was] an
unsolved computer science problem” (Ex. 2009 at 15)
and that as of February of 2001, BeComm had “not
yet finalized how Juno will implement the
requirement that a Media Server session be able to
simultaneously serve multiple concurrent Adapters
and keep their playback synchronized” (Ex. 2011 at
37).
Relying on Mr. Balassanian’s declaration, Patent
Owner alleges that “in the ensuing months [after the
Juno project ended] Mr. Balassanian and Mr. Bradley
conceived of the inventions” (PO Resp. 19–20 (citing
Ex. 2001 ¶¶ 33, 42–74)), and communicated the
invention to BeComm’s internal engineering and
development staff (id. at 20 (citing Ex. 2001 ¶ 33)).
Patent Owner alleges that Mr. Balassanian and Mr.
Bradley worked with BeComm’s Engineering Master,
Mr. Guy Carpenter, to implement the inventions. Id.
To corroborate Mr. Balassanian’s testimony that

72a
Mr. Balassanian and Mr. Bradley conceived of the
invention, Patent Owner relies on BeComm source
code files and certain internal BeComm documents.
PO Resp. 20– 23. Patent Owner contends the source
code files were initially checked in on September 10,
2001, and fully operational by the end of October
2001, as indicated by BeComm’s Concurrent Version
System (“CVS”) repository check-in dates. PO Resp.
20–21 (citing Ex. 2001 ¶¶ 37–38; Ex. 2013 at 2; Ex.
2080 ¶¶ 39–49).
In addition to the source code, Patent Owner
highlights four internal BeComm documents to
corroborate Mr. Balassanian’s testimony that he and
Mr. Bradley conceived of the invention prior to
December 11, 2001: (1) “Using Strings to Compose
Applications from Reusable Components” dated
October 2001, which describes a system using clock
synchronization modules to “achieve the best possible
synchronization” (PO Resp. 21 (citing Ex. 2021 at 8));
(2) certain documentation describing the Strings
Audio Player demonstrations, which Patent Owner
alleges incorporated the functionality of the source
code (PO Resp. 22 (citing Ex. 2001 ¶¶ 64–69, 113–116;
Exs. 2025–28, 2034)); (3) a case study that describes
certain synchronization functionality that Patent
Owner alleges was printed on December 3, 2001 (PO
Resp. 23 (citing Ex. 2029 at 5–7; Ex. 2077 at 28– 30));
and (4) “synchronization.doc,” which Patent Owner
contends was completed on December 9, 2002, and
which was eventually filed on December 17, 2001, as
the provisional patent application to which the ʼ252
Patent claims priority (PO Resp. 23 (citing Exs. 2037,
2077)).

73a

b. Reduction to Practice
To corroborate Mr. Balassanian’s testimony that
the inventions were reduced to practice before
December 11, 2001, Patent Owner relies primarily on
two types of evidence. First, Patent Owner points to
specific demonstrations, known internally as the
“Fight Club demonstrations,” of the synchronization
functionality that Mr. Balassanian witnessed and
participated in prior to December 11, 2001. PO Resp.
24–25 (citing Ex. 2001 ¶¶ 53–60).
These
demonstrations
involved
a
video
file,
“fightclubrgb.avi,” that Patent Owner contends has a
date-modified timestamp of September 7, 2001. PO
Resp. 24 (citing Ex. 2077 at 21). According to his
testimony, Mr. Balassanian recalls the Fight Club
demonstration operated by having a master device
split the video and audio of the fightclubrgb.avi video
file, play and render the video, and send the video and
audio to separate slave devices where the video and
audio were synchronized with the master device. PO
Resp. 24–25 (citing Ex. 2001 ¶¶ 43, 58, 59).
Second, Patent Owner relies on source code
packages dated October and November of 2001. PO
Resp. 25 (citing Ex. 2031 at 2; Ex. 2032 at 2; Ex. 2034
at 2). Dr. Hashmi opines that the source code would
practice the challenged claims when run and would
operate in the way Mr. Balassanian recalls, i.e. by
splitting video and audio and synchronizing between
master and slave devices. PO Resp. 25–26 (citing Ex.
2082).
The source code files that Dr. Hashmi
analyzed are dated November 1 and 15 of 2001. Ex.
2080 ¶¶ 62–104.
Based on the dates of the Fight Club

74a
demonstration files and the source code files, and the
fact that Dr. Hashmi testifies that the source code
practices the limitations of the challenged claims,
Patent Owner contends that the inventions were
reduced to practice before Janevski’s December 11,
2001 priority date. PO Resp. 19–28.

2. Petitioner’s Arguments
Petitioner presents several arguments against
Patent Owner’s attempt to swear behind Janevski’s
priority date, including (1) that Mr.
Balassanian’s testimony has not addressed the
actual claim limitations (Pet. Reply 1–4); (2) that Mr.
Balassanian’s testimony is not independently
corroborated (Pet. Reply 5–8); (3) that Patent Owner
relies on source code written by non-inventor Mr.
Carpenter to establish conception and reduction to
practice of the invention without evidence that such
reduction to practice inures to the benefit of the
named inventors; and (4) that the source code upon
which Patent Owner relies fails to practice each and
every claim limitation. Pet. Reply 9.
Petitioner argues Mr. Balassanian’s testimony
regarding conception should be given no weight
because Mr. Balassanian failed at this deposition to
provide his understanding of the meaning of the claim
limitations.
Without providing such testimony,
Petitioner
argues,
Mr.
Balassanian
cannot
competently testify regarding any conception of the
claimed inventions. Pet. Reply 2–3 (citing Ex. 1019,
20:16–22:24, 26:5–16, 36:3–19, 39:18–41:12, 44:22–
45:3, 47:6–49:20, 50:11–22, 51:22–52:4, 53:1–24,
165:9–166:10).

75a
Petitioner further argues that Mr. Balassanian’s
testimony is not independently corroborated because
the documents cited in the declaration can only
provide corroboration with the help of Mr.
Balassanian’s testimony, leading to a circular
problem that the Federal Circuit criticized in Apator
Miitors ApS v. Kamstrup A/S, 887 F.3d 1293 (Fed.
Cir. 2018), a case Petitioner argues is particularly
relevant to the facts at hand here. Pet. Reply 6–8.
For example, Petitioner argues that documents
related to the Fight Club demonstrations “are silent
about any demonstrations actually being conducted
prior to Janevski” and that only through Mr.
Balassanian’s testimony are the documents linked to
any alleged demonstrations. Pet. Reply 8. Petitioner
argues that the documents alone do not evidence that
any demonstrations actually took place, when they
allegedly took place, who was present, and what the
results of the demonstrations were. Pet. Reply 8.
Petitioner argues that Patent Owner relies on
source code written by a non-inventor, Mr. Guy
Carpenter, to establish conception of the invention
but that no evidence, other than Mr. Balassanian’s
testimony, is presented showing that the inventors
communicated the invention to Mr. Carpenter. Pet.
Reply 9 (citing Exs. 2019, 2017, 2020 (each of which
lists Mr. Carpenter as the owner)). Thus, Petitioner
argues, the record is devoid of evidence that Mr.
Carpenter’s work inured to the benefit of the
inventors. Pet. Reply 9.
Finally, Petitioner argues that Patent Owner’s
source code fails to practice every limitation of the
claim and thus cannot be relied upon to show

76a
conception and reduction to practice of the invention.
Pet. Reply 12. Specifically, Petitioner argues the
source code fails to meet the “render time” limitation
because the portions of the source code that Patent
Owner relies upon for teaching this limitation
actually refer to the system time of the master device
rather than the rendering time. Pet. Reply 13.
Petitioner also argues the source code does not
synchronize between master and slave and that the
documentation shows that the system’s goal was to
synchronize between two slaves instead. Pet. Reply
15–20.

3. Analysis
“In an inter partes review, the burden of
persuasion is on the petitioner to prove
‘unpatentability by a preponderance of the evidence,’
35 U.S.C. § 316(e), and that burden never shifts to the
patentee.” Dynamic Drinkware, LLC v. National
Geographics, Inc., 800 F.3d 1375, 1378 (Fed. Cir.
2015). The burden of production, however, is a
shifting burden. Id. at 1379. Thus, Petitioner bears
the burden of persuasion, by a preponderance of the
evidence, that the challenged claims are
unpatentable. 35 U.S.C. § 316(e). Petitioner has
proffered Janevski, which presumptively constitutes
prior art under 35 U.S.C. § 102(e), because it was filed
on December 11, 2001, which is prior to the December
17, 2001 date of U.S. Provisional Application No.
60/341,574, to which the ʼ252 Patent claims priority.
This difference in dates shifts the burden of
production to Patent Owner to produce evidence
supporting a date of invention before Janevski’s filing
date. See Dynamic Drinkware, 800 F.3d at 1379.

77a
“To antedate . . . an invention, a party must show
either an earlier reduction to practice, or an earlier
conception followed by a diligent reduction to
practice.”
Purdue Pharma L.P. v. Boehringer
Ingelheim GmbH, 237 F.3d 1359, 1365 (Fed. Cir.
2001). “Conception is the formation, in the mind of
the inventor, of a definite and permanent idea of the
complete and operative invention, as it is thereafter
to be applied in practice.” Cooper v. Goldfarb, 154
F.3d 1321, 1327 (Fed. Cir. 1998). Conception is
complete when the idea is so clearly defined in the
inventor’s mind that only ordinary skill is necessary
to reduce the invention to practice. Burroughs
Wellcome Co. v. Barr Labs., Inc., 40 F.3d 1223, 1228
(Fed. Cir. 1994). Actual reduction to practice occurs
when: (1) a party constructs an embodiment or
performs a process that satisfies every element of the
claim at issue, and (2) the embodiment or process
operates for its intended purpose. See Eaton v.
Evans, 204 F.3d 1094, 1097 (Fed. Cir. 2000).
Acts by others working explicitly or implicitly at
the inventor’s request can inure to an inventor’s
benefit. Cooper, 154 F.3d at 1332. Inurement
involves a claim by an inventor that, as a matter of
law, the acts of another person should accrue to the
benefit of the inventor. Genentech, Inc. v. Chiron
Corp., 220 F.3d 1345, 1353 (Fed. Cir. 2000). However,
when a person relies on the activities of others to show
actual reduction to practice, proof of conception is
relevant to inurement. See Sensio, Inc. v. Select
Brands, Inc., IPR2013-00580, Paper 31 at 10–15
(PTAB Feb. 9, 2015) (Final Written Decision); see also
NFC Tech., LLC v. Matal, 871 F.3d 1367, 1371–72

78a
(Fed. Cir. 2017). In Genentech, in the context of
deciding whether the reduction to practice inured to
the inventor’s benefit, the Federal Circuit held that
the inventor first must show that she conceived the
invention. Genentech, 220 F.3d at 1354 (“[W]e glean
at least three requirements that must be met before a
non-inventor’s recognition of the utility of an
invention can inure to the benefit of the inventor.
First, the inventor must have conceived of the
invention.”).
This requirement makes sense;
otherwise, a person could antedate a prior art
reference without showing that she was the first to
reduce the invention to practice and also without
showing that she was the first to conceive the
invention, contrary to the requirements for
antedating an invention. See Purdue Pharma, 237
F.3d at 1365. Thus, Patent Owner must show that
the inventor conceived the subject matter of the
invention in order to have someone else’s reduction to
practice inure to the inventor’s benefit. Genentech,
220 F.2d at 1354.
It is well established that when a party seeks to
prove conception through an inventor’s testimony, the
party
must
proffer
independent
evidence
corroborating the inventor’s testimony. Cooper, 154
F.3d at 1330. To be “independent,” the corroborating
evidence must be evidence other than the inventor’s
testimony. In re NTP, Inc., 654 F.3d 1279, 1291 (Fed.
Cir. 2011).
The sufficiency of the proffered
corroboration is determined by a “rule of reason”
analysis in which all pertinent evidence is examined.
In re NTP, 654 F.3d at 1291. Even under the “rule of
reason” analysis, however, the “evidence of

79a
corroboration must not depend solely on the inventor
himself.” Cooper, 154 F.3d at 1321; see also Hahn v.
Wong, 892 F.2d 1028, 1033 (Fed. Cir. 1989)
(corroborating evidence must be “independent of
information received from the inventor”).
Petitioner argues that because Mr. Guy
Carpenter, a non-inventor, authored the source code
relied upon to show conception and reduction to
practice, Patent Owner must show that Mr.
Carpenter’s actions inure to the benefit of the
inventors. Pet. Reply 9. In order to do so, Patent
Owner must show that the inventors conceived of the
invention.
Mr. Balassanian testifies that:
Around the time of the Juno project (and
after the project for Intel went on hold), I
contemplated how to achieve the bestpossible
synchronization of content across multiple
devices as we continued our work. Mr.
Bradley and I solved the synchronization
problem and conceived the inventions set
forth in the Claims of the Patents. We then
began working on the implementation of the
inventions thereafter, as detailed below. We
communicated those inventions to BeComm’s
internal engineering and development staff
to reduce them to practice. We worked
primarily
with
Guy
Carpenter,
an
Engineering Master at BeComm, to
implement the inventions, as I describe
below.
Ex. 2001 ¶ 33. Thus, Mr. Balassanian testifies that
(1) he and Mr. Bradley conceived of the invention, (2)

80a
he and Mr. Bradley then communicated the
inventions to BeComm’s staff, including to Mr.
Carpenter, and (3) he and Mr. Bradley worked with
BeComm’s staff, including Mr. Carpenter, to reduce
the inventions to practice. If properly corroborated,
this testimony would show that Mr. Carpenter’s work
in reducing the invention to practice inures to the
benefit of Mr. Balassanian and Mr. Bradley.
However, as we explain below, Patent Owner has not
carried its burden of production to present sufficient
evidence
to
independently
corroborate
Mr.
Balassanian’s testimony that he and Mr. Bradley
conceived of the invention and communicated it to
BeComm’s staff.
Initially, we note Patent Owner does not provide
a specific date on which Mr. Balassanian or Mr.
Bradley conceived of the invention. Instead, Patent
Owner presents evidence spanning a time period of
roughly a year as support for the argument that
conception occurred before the December 11, 2001
priority date of Janevski. This evidence includes
internal BeComm documents, evidence of audio and
video demonstrations that allegedly show the
synchronization technology, and BeComm source code
modules that Patent Owner contends practice the
claim limitations. PO Resp. 19–29. However, as
discussed below, none of this evidence supports the
contention that it was Mr. Balassanian and/or Mr.
Bradley who conceived of the invention and
subsequently communicated the invention to Mr.
Carpenter.
We start with evidence related to the Juno
project, which Patent Owner argues was the “genesis

81a
of what ultimately became the synchronization
technology.” PO Resp. 19. We note that the two
primary documents related to the Juno project relied
upon by Patent Owner show the invention had not yet
been conceived during the December 2000 to
February 2001 time frame when the project was
active. For example, the “Juno Phase 0 Document,”
which lists Mr. Balassanian, Mr. Bradley, and Mr.
Carpenter as “Document Contributors” (Ex. 2009 at
5), states that “[b]oth Jupiter [codename for Intel] and
BeComm recognize that true synchronization is an
unsolved computer science problem, but a best effort
will be made in this regard” (Ex. 2009 at 15). The
“Juno: Phase 1” document also lists Mr. Balassanian,
Mr. Bradley, and Mr. Carpenter as “Document
Contributors” (Ex. 2011 at 8), and states “[w]e have
not yet finalized how Juno will implement the
requirement that a Media Server session be able to
simultaneously serve multiple concurrent Adapters
and keep their playback synchronized.” Ex. 2011 at
37. These documents make clear that a “permanent
idea of the complete and operative invention” had not
yet been formulated during this time period. See
Cooper, 154 F.3d at 1327.
The next document relied upon is titled “Using
Strings to Compose Applications from Reusable
Components.” This document, dated October 4, 2001,
does not list either of the two inventors as authors and
only names “BeComm Corporation” as the source of
the document. Ex. 2021 at 1. Mr. Balassanian’s
testimony also does not indicate who the authors of
the document are, referring to it only as “BeComm
documentation.” See Ex. 2001 ¶ 61. Moreover, the

82a
document discusses synchronization only briefly and
details corresponding to the claim limitations are
missing from the document.
Documents related to the Strings Audio Player
(Exs. 2025–28) also do not list either of the two
inventors as authors, and neither Patent Owner nor
Mr. Balassanian indicates that the two inventors are
authors of these documents. Because the documents
do not indicate their date of creation, Patent Owner
relies on metadata showing the documents were
created on November 9 or November 14 of 2001. See
Ex. 2077 at 23–26. These dates occur after Patent
Owner contends the source code that practices the
claim limitations had already become fully
operational and, thus logically, also after the
invention would have already been conceived. PO
Resp. 20–21 (citing Ex. 2001 ¶¶ 37–38; Ex. 2013 at 2;
Ex. 2080 ¶¶ 39–49). None of the Strings Audio Player
demonstration
documents,
save
the
audioplayerapp.rule
document,
refers
to
synchronization at all. See generally Exs. 2025–27,
2034.
The
audioplayerapp.rule
mentions
synchronization only by referring to source code
modules such as clocksync. See Ex. 2028 at 2.
The cited case study document similarly does not
list an author. See Ex. 2029. Again, the document
itself has no indication of a date, but Patent Owner,
relying on metadata, contends the document was
created by December 3, 2001 (PO Resp. 23 (citing Ex.
2077 at 28–30)), which is after Patent Owner
contends the invention was conceived.
The remaining document mentioned in Patent
Owner’s Response is “synchronization.doc,” which

83a
was filed on December 17, 2001, as the provisional
application to which the ʼ252 Patent claims priority
and which Patent Owner contends was drafted at
least as early as December 9, 2001. The evidence
shows, however, that the December 9 version of this
document, which appears to be the version that was
the basis for the provisional application, was
authored by non-inventor Mr. Carpenter. See Ex.
2038 (“After talking with Guy and rereading the
/docs/synchronization.doc document he wrote, I think
it is sufficient for the patent provisional as is.”); Ex.
2077 at 35 (listing “guyc” as last saving the
document).
Patent Owner argues that the Fight Club
demonstrations occurred prior to December 11, 2001,
and Mr. Balassanian recalls that he participated in
these demonstrations from September 2001 forward.
PO Resp. 24 (citing Ex. 2001 ¶ 56). We agree with
Petitioner that Mr. Balassanian’s testimony is largely
uncorroborated.
But even assuming that the
demonstrations occurred in the time frame recalled
by Mr. Balassanian and that the demonstrations
operated to synchronize content over multiple
devices, the evidence as a whole does not support the
conclusion that Mr. Balassanian or Mr. Bradley
conceived of the synchronization technology behind
the demonstrations.
The occurrence of the
demonstrations as recalled by Mr. Balassanian does
not corroborate his testimony regarding conception
itself.
Ultimately, Patent Owner relies on BeComm
source code, more than any other piece of evidence, to
corroborate both conception and reduction to practice.

84a
PO Resp. 26–31. Patent Owner highlights three
source code modules, “audiosync,” “timesync,” and
“clocksync,” as forming “the central core of BeComm’s
embodiment of the Challenged Claims.” PO Resp. 20.
These modules, Patent Owner contends, were fully
operational to synchronously render content over
multiple devices by the end of October 2001. PO Resp.
21. These source code modules are also the modules
that Patent Owner contends were used for the Fight
Club demonstrations (PO Resp. 25), and that are
referenced in documents such as the “Using Strings”
document (see Ex. 2021 at 9). Dr. Hashmi analyzed
these modules, amongst others, in opining that
BeComm source code dated November 2001 practices
the claim limitations. Ex. 2080 ¶ 18. However, as
Petitioner points out, each of these modules lists Mr.
Carpenter as the sole author. Pet. Reply 9 (citing Exs.
2017, 2019, 2020 (showing that “Guy Carpenter
(guyc)” as the owner)). Neither Mr. Balassanian nor
Mr. Bradley is listed as an author, and Patent Owner
does not present any evidence that either of the two
inventors contributed to writing the source code.
Petitioner first raised the inurement issue in its
Reply Brief. Pet. Reply 9. Patent Owner did not
respond to the inurement issue at all in its briefing.
See generally PO Sur-Reply. Patent Owner briefly
addressed inurement at the oral hearing and argued
that it would be “a matter of common sense” that Mr.
Carpenter would have written the source code on
behalf of Mr. Balassanian given that Mr. Balassanian
was the CEO of BeComm and that Mr. Carpenter was
BeComm’s Master Engineer. Tr. 67:1–15. Even if
this is true, as we explained above, inurement

85a
requires a showing that the inventors conceived of the
invention in order for them to benefit from Mr.
Carpenter’s work. The record, however, does not
support that the Patent Owner made such a showing.
In summary, none of the BeComm internal
documents, demonstrations of BeComm technology,
or
BeComm
source
code
corroborate
Mr.
Balassanian’s testimony that he and Mr. Bradley
conceived of the challenged claims or that they
communicated the inventions to Mr. Carpenter.
Considering the record before us as a whole, we
determine that Patent Owner fails to meet its burden
of producing evidence sufficient to show conception by
Mr. Balassanian and Mr. Bradley and, therefore, that
Mr. Carpenter’s actions inure to the benefit of the
inventors.
Thus, we find that Patent Owner fails to provide
sufficient
support
for
antedating
Janevski.
Accordingly, we agree with Petitioner that Janevski
serves as prior art to the ʼ252 Patent. Under these
circumstances, it is not necessary to reach the issue of
whether BeComm source code practices the claim
limitations.

D. Obviousness
Petitioner argues claims 1–3, 8, 11, and 17 would
have been obvious over the cited prior art references.
Pet. 35–68. To support its contentions, Petitioner
provides an explanation of how Janevski teaches each
limitation of the challenged claims, except for the
limitation requiring to “smooth a rendering time
differential that exists between the master rendering
device and the first slave device” (the “smoothing
element”) of independent claims 1 and 11. According

86a
to Petitioner, however, the smoothing aspect of the
independent claims would have been an insignificant
advance over Janevski alone, or would have been
obvious over the teachings of Azevedo, Mills,
Berthaud, Eidson, or Baumgartner. Id. Petitioner
also relies on the declaration of Dr. Roman Chertov
(Ex. 1009, “Chertov Decl.”) in support of its
arguments.
We discuss each of Petitioner’s
challenges below.
A patent claim is unpatentable under 35 U.S.C. §
103(a) if the differences between the claimed subject
matter and the prior art are such that the subject
matter, as a whole, would have been obvious at the
time the invention was made to a person having
ordinary skill in the art to which said subject matter
pertains. KSR Int’l Co. v. Teleflex Inc., 550 U.S. 398,
406 (2007). The question of obviousness is resolved
on the basis of underlying factual determinations
including (1) the scope and content of the prior art; (2)
any differences between the claimed subject matter
and the prior art; (3) the level of ordinary skill in the
art; and (4) objective evidence of nonobviousness.
Graham v. John Deere Co., 383 U.S. 1, 17–18 (1966).
To be relevant, evidence of nonobviousness must
be commensurate in scope with the claimed invention.
In re Huai–Hung Kao, 639 F.3d 1057, 1068 (Fed. Cir.
2011). Thus, to be accorded substantial weight, there
must be a nexus between the merits of the claimed
invention
and the
evidence
of
secondary
considerations. In re GPAC Inc., 57 F.3d 1573, 1580
(Fed. Cir. 1995). “For objective evidence of secondary
considerations to be accorded substantial weight, its
proponent must establish a nexus between the

87a
evidence and the merits of the claimed invention.”
Kao, 639 F.3d at 1068. The stronger the showing of
nexus to the claimed invention, the greater the weight
accorded the objective indicia of nonobviousness.
Ashland Oil, Inc. v. Delta Resins & Refractories, Inc.,
776 F.2d 281, 306 (Fed. Cir. 1985). We apply “a
[rebuttable] presumption of nexus for objective
considerations when the patentee shows that the
asserted objective evidence is tied to a specific product
and that product ‘is the invention disclosed and
claimed in the patent.’” WBIP, LLC v. Kohler Co., 829
F.3d 1317, 1329 (Fed. Cir. 2016) (citing J.T. Eaton &
Co. v. Atl. Paste & Glue Co., 105 F.3d 1563, 1571 (Fed.
Cir. 1997).

Ground 1: Obviousness over Janevski Alone
1. Overview of Janevski
Janevski is directed to “techniques for
synchronizing playback of two or more digital streams
based on renderable content of those streams.” Ex.
1007, 1:8–11. Janevski describes a situation in which
two or more individuals watch content recorded on
their personal video recorders (typically television
broadcasts) at different locations simultaneously
while communicating over the phone about the
content being watched. Id. at 1:38–44. Janevski
notes that one possible problem that may occur in this
situation is that the content being played at the
respective locations may fall out of synch with each
other and therefore affect the enjoyment of watching
a program simultaneously together. Id. at 1:44–52.
Janevski, therefore, “provides a system that allows
two or more people with personal video recorders
(PVRs) to precisely synchronize their time-shifted

88a
viewing.” Id. at 5:3–5.
In Janevski’s system, certain PVRs are
designated as “initiators,” while others are referred to
as “participants.” Id. at 6:16–18. The initiator is
initially the PVR that starts the session, but the role
of the initiator is handed off to any PVR that performs
a control function such as stop, pause, fast forward, or
reverse. Id. at 6:18–25. “To ensure that the PVRs . .
. participating in a session remain synchronous, a
status message is sent out periodically by the
‘initiator.’” Id. at 7:36–39. The status message
includes “an indication of the program being watched,
the current mode of watching (e.g., normal play, fast
forward, pause), an indication of the time into the
program, and information characteristic of content of
a digital bit stream from which playback to the
message sender is being generated.” Id. at 7:41– 46.
Janevski describes a two-phase synchronization
method, the first phase of which is to perform time
synchronization and the second phase of which is to
fine tune the time synchronization by performing
frame synchronization. Id. at 7:47–50, 9:10–14,
10:28–35. Janevski describes one embodiment of the
time synchronization phase in which a time
misregistration
is
calculated.
The
time
misregistration is a difference or misalignment of the
video timers of the PVRs and is calculated using
information in messages sent between initiator and
participant PVRs. See id. 9:15–10:3. A participant
compensates for the time misregistration by
advancing or rolling back the time count of its video
timer to synchronize with the initiator. Id. at 12:59–
13:7.
Although Janevski describes one way of

89a
performing time synchronization, Janevski notes that
“[t]ime synchronization can be implemented in many
different known ways,” and cites to Azevedo as a
reference describing examples of certain clock
synchronization techniques. Id. at 8:53–59.
After time compensation, the process proceeds to
the frame synchronization phase, which entails
finding the frame in the participant’s stream that
most closely matches the initiator’s frame. Id. at
10:52–62.
This is done by determining frame
misregistration, which is described as “the contentwise misalignment of two playbacks.” Id. at 10:58–
60. The participant then compensates for such frame
misregistration by fast forwarding or rewinding
playback so that synchronization is achieved. Id. at
10:52–62, 13:24–26, 15:22–26.

2. Independent Claims 1 and 11
Based on our review of the record, we are
persuaded Petitioner has provided sufficient evidence
that Janevski discloses each of the limitations of
claim 1, and analogously of claim 11, except we are
unpersuaded that Janevski renders obvious the
smoothing aspect of these claims. For this reason, we
are ultimately unpersuaded by Petitioner’s Ground 1
challenge over Janevski alone. Claim 11 recites
limitations that are analogous to those recited in
claim 1 and Petitioner relies on largely the same
arguments as those made for the corresponding
limitations of claim 1 (see Pet. 50–55), thus, in our
analysis below, we refer primarily to claim 1 of the
ʼ252 Patent.
Claim 1 recites “[a] method comprising: a master
rendering device rendering a first content stream.”

90a
Petitioner argues Janevski discloses a master
rendering device that renders a first content stream
by designating certain PVRs as the “initiator” and
other PVRs as participants. Pet. 36 (citing Ex. 1007,
Fig. 1, 6:4–25). The initiator and participant PVRs in
Janevski receive broadcasts of video content that take
the form of digital bit streams then play back their
respective bit streams in a synchronized manner. Pet.
37 (citing Ex. 1007, Fig. 1, Abstract, 1:8–11, 5:3–32,
6:4–25, 15:64–16:5, 16:35–37, 16:44–52). According to
Petitioner, “the ‘initiator’ PVR playing back a ‘digital
bit stream’ amounts to the claimed functionality of a
‘master rendering device rendering a first content
stream.’” Pet. 37.
We agree with Petitioner that Janevski’s initiator
PVRs teach the claimed “master rendering device”
and the participant PVRs teach the claimed “plurality
of slave devices.” The ʼ252 Patent describes the
relationship between the master rendering device and
the slave rendering devices as one where the slave
device “adjusts the rendering of its content to keep it
in synchronization with the rendering of the content
at the master rendering device.” Ex. 1001, 2:36–38.
This is precisely what the participant devices in
Janevski do relative to the initiator device. See e.g.,
Ex. 1007, Fig. 6 (showing that participant device
advances its time count to match the stamp from the
initiator device).
Claim 1 also recites “sending from the master
rendering device to a first one of a plurality of slave
devices, a plurality of master rendering times
indicative of statuses of the rendering the first
content stream at the master rendering device at

91a
different times.” Petitioner argues Janevski teaches
this limitation because its initiator PVRs send
periodic status messages to participant PVRs and the
status messages include the initiator’s “time into the
[video] program,” and Janevski also discloses that the
status messages include “query time stamps.” Pet.
37–38 (citing Ex. 1007, Abstract, 7:36– 50, 10:19–35,
12:5–36).
We are persuaded by Petitioner’s mapping of the
aforementioned limitation to Janevski. Janevski
discloses that the initiator device sends a status
message to participant devices where the status
message includes, amongst other things, a “time into
the program.” Ex. 1007, 7:41–44. We agree with the
Petitioner that the status message’s “time into the
program” teaches the claimed “master rendering
time” that is sent from an initiator device (i.e., a
“master rendering device”) to the participant devices
(i.e., a “slave device”).
Claim 1 further recites:
wherein the first slave device is configured to
smooth a rendering time differential that
exists between the master rendering device
and the first slave device in order to render a
second content stream at the first slave
device synchronously with the rendering of
the first content stream at the master
rendering device, wherein smoothing the
rendering
time
differential
includes
calculations using the plurality of master
rendering times.
Petitioner argues Janevski teaches every aspect of
this claim element, other than the smoothing

92a
element. Pet. 38–39. We agree. In particular,
Petitioner argues Janevski discloses that each
participant PVR periodically determines whether
there is a misalignment between the initiator PVR’s
video content and its own video content and, if so,
synchronizes the video content. Pet. 39 (citing Ex.
1007, Abstract, 7:36–50, 10:36–60, 12:59–13:29,
15:32–33). The synchronization includes the steps of
determining a time misregistration (i.e., a difference
in the time counts of the PVRs) and compensating for
the time misregistration by adjusting the
participant’s time count. Pet. 39–40 (citing Ex. 1007,
Abstract, 7:36–50, 8:39–10:3, 10:19–35, 11:43–12:4,
12:5–36, 12:59–13:21). The steps further include
calculating a frame misregistration (i.e., a differential
between the video frames that have been rendered by
the initiator PVR and the video frames that have been
rendered by the participant PVR), and compensating
for this frame misregistration by slowing down,
speeding up, rewinding, fast-forwarding, and/or
halting its rendering of the video content. Pet. 40
(citing Ex. 1007, Abstract, 3:52–57, 10:60–62, 13:24–
30, 14:35–63). Petitioner contends that the foregoing
establishes that the calculated values for both time
count differential and frame differential are used by
the participant PVR to render video content
synchronously with the initiator PVR and that the
time count differential and the frame differential each
separately amounts to “two or more calculated values
for a differential between a time measure of a master
rendering device and a corresponding time measure
of the first slave device.” Pet. 41– 42 (citing Ex. 1009
¶¶ 117–118).

93a
We agree with Petitioner that Janevski’s time
misregistration
teaches
the
claimed
“time
differential” between the master and slave devices.
Indeed, the formula used to calculate Janevski’s time
misregistration (Ex. 1007, 9:34 (“TM=1/2 [(A+D)–
(C+B)]”) is similar to the formula used to calculate the
ʼ252 Patent’s “time differential” (Ex. 1001, 5:37
(“Diff=((RT1ST1)+ST2-RT2)/2”)).
We do not agree with Petitioner’s alternative
contention that Janevski’s frame misregistration also
teaches the claimed “time differential.” Janevski’s
frame misregistration “refer[s] to the content-wise
misalignment of two playbacks.” Ex. 1007, 10:59–60.
In other words, frame misregistration represents the
frame count differential between the target query
frame of the initiator and the identified participant
frame that is most similar content-wise to the
initiator’s query frame. We disagree that frame
misregistration would teach the claimed time
differential to one of ordinary skill in the art.
Nevertheless, because we agree that Janevski’s time
misregistration
teaches
the
claimed
“time
differential,” we are persuaded by Petitioner’s
contentions regarding this limitation.
Petitioner acknowledges that “[t]he only aspect of
[the above claim element] not expressly disclosed by
Janevski is the ‘smoothing’ function.”
Pet. 42.
However, Petitioner contends that applying a
smoothing function to either the time count
differential or the frame differential would be an
insignificant advance over Janevski because
smoothing (e.g., by averaging or filtering) was a
conventional technique well within the knowledge of

94a
the ordinarily skilled artisan used for reducing
volatility in a set of measured values. Pet. 43 (citing
Ex. 1009 ¶¶ 120–121; Ex. 1015; Ex. 1016). Petitioner
relies on Dr. Chertov’s testimony that if the
participant PVR in Janevski were configured to
calculate an average of the last two or more calculated
values of either the time count or frame differential,
or to apply a filter to these values before using them,
then the participant PVR would be “smoothing” the
values. Ex. 1009 ¶ 120. Dr. Chertov cites to certain
textbooks and publications discussing methods for
data smoothing as evidence that a person of ordinary
skill would have had knowledge of smoothing
techniques used to smooth data. Ex. 1009 ¶ 122
(citing Exs. 1015, 1016).
Patent Owner argues that it is undisputed that
Janevski does not disclose the “smoothing” elements
and reminds us that for this reason, we did not find
this ground persuasive in our Decision to Institute.
PO Resp. 32. Patent Owner does not present any
further arguments against this ground and instead
focuses on Petitioner’s other grounds.
We are unpersuaded that one of skill in the art
would have been motivated to smooth the time count
differential based on Janevski’s disclosure alone. We
find Petitioner’s arguments improperly guided by
hindsight in light of the smoothing aspect of the
challenged claims. See In re Fritch, 972 F.2d 1260,
1266 (Fed. Cir. 1992) (“It is impermissible to use the
claimed invention as an instruction manual or
‘template’ to piece together the teachings of the prior
art so that the claimed invention is rendered obvious.”
(citation omitted)).

95a
Petitioner contends that smoothing was a wellknown technique for reducing volatility in a set of
measured values. Pet. 43. Although this statement
may be true, in general, for the instance where
Janevski is considered alone, no persuasive evidence
is provided that smoothing would have been applied
to the values of time count differential in the specific
context of synchronizing clocks or content streams.
For example, although the textbook and publication
relied upon by Dr. Chertov mention data smoothing,
they do not do so in the context of synchronization.
See Ex. 1015 (discussing data smoothing in the
context of the “measurement of energy spectra”); see
also Ex. 1016 (discussing smoothing generally in
statistics but failing to discuss its application in
synchronization). Besides hindsight reconstruction,
Petitioner does not present sufficient evidence why
one of ordinary skill in the art, even equipped with
the knowledge of smoothing, would have applied it to
clock
synchronization
or
content
stream
synchronization. Further, although Dr. Chertov
testifies that by simply averaging or filtering the last
few time count and frame differential values,
Janevski’s PVRs would be practicing the smoothing
limitation, insufficient evidence is put forth of a
reason why one of ordinary skill would have been
motivated to average or filter Janevski’s time count
and frame differential values. Janevski alone does
not mention the benefits of averaging or filtering the
time count and frame differentials once those values
are obtained.
Petitioner has shown, by a preponderance of the
evidence that Janevski teaches every limitation of

96a
claims 1 and 11, except for the recited smoothing
element. We are not persuaded that Janevski alone
would render the smoothing limitation obvious.
Thus, we conclude that the Petitioner has not
presented sufficient evidence to support the Ground 1
challenge of claims 1 and 11, and claims 2, 3, 8, and
17, which depend from one of claims 1 and 11, as
obvious over Janevski alone under a preponderance of
evidence standard.

Grounds 2–5: Obviousness over Janevski and Each
One of Azevedo, Mills, Berthaud, and Eidson
1. Overview of Azevedo
Azevedo is directed to fault tolerant clock
synchronization in a distributed system. Ex. 1010, 1.
Azevedo explains that in a distributed computer
system, time synchronization is important and must
be maintained in spite of the presence of faults in the
system. Id. Fault tolerant clock synchronization may
be achieved “via interactive convergence algorithms
in which nodes exchange their clock values and
determine clock correction terms at regular
intervals.” Id. Azevedo presents the measured
performance of three interactive convergence
algorithms, one of which is identified as “the adaptive
exponential averaging fault-tolerant midpoint
algorithm” (“AEFTMA”). Id. AEFTMA includes a
weight factor that “smooths” the clock correction
term. Id. at 4.

2. Overview of Mills
Mills, a 1992 reference, is directed to a Network
Time Protocol (“NTP”), “which is used to synchronize
timekeeping among a set of distributed time servers

97a
and clients. It defines the architectures, algorithms,
entities and protocols used by NTP and is intended
primarily for implementors.” Ex. 1011, 1. Section 4
of Mills “describes algorithms useful for deglitching
and smoothing clock-offset samples collected on a
continuous basis.” Id.

3. Overview of Berthaud
Berthaud
“presents
a
general
time
synchronization algorithm that analyzes the time
offset between any two computers’ clocks in a network
and its evolution, by using mathematical topology
properties.” Ex. 1012, 265. Berthaud discloses
synchronization between master and slave devices by
measuring time offset between their clocks. An
estimate of a clock offset is produced from a set of
observations “and several tools may be used in the
estimation evaluation process, such as: mean value,
weighted average, linear regression, midpoint
functions, etc.” Id. at 266. The “estimation is used to
determine the amount by which a slave should adjust
its local clock.” Id.

4. Overview of Eidson
Eidson “relates to enhancements to time
synchronization in distributed systems.” Ex. 1013,
1:9–10. “The enhancements include techniques that
compensate for jitter associated with communication
circuitry in the distributed system including jitter
associated with physical interfaces and gateways in
the distributed system.” Ex. 1013, Abstract. Eidson
describes that “[o]ne method for reducing the negative
effects of jitter . . . is to average the differences
computed between the time value in the time-stamp
latch and the time-stamp . . . .” Id. 4:16–21. Eidson

98a
explains that the averaged result is then used to
adjust the local clock. Id. 4:30–32.

5. Independent Claims 1 and 11
a. Petitioner’s Contentions
As before, Petitioner argues Janevski teaches
each of the limitations of claims 1 and 11, except for
the smoothing element of these claims. Pet. 42. As
explained above, we ultimately agreed with Petitioner
that Janevski teaches the limitations of claims 1 and
11 except the smoothing function. For the smoothing
element of claim 1, Petitioner argues any one of
Azevedo, Mills, Berthaud, and Eidson (“the clock
synchronization references”) teaches the smoothing
element and applies it to various clock variables.
According to Petitioner, Janevski discloses that
time synchronization between initiator and
participant PVRs “can be implemented in many
different known ways” and Janevski identifies
Azevedo as disclosing some examples of these known
ways. Pet. 44 (citing Ex. 1007, 8:53–59). Azevedo
relates to fault tolerant clock synchronization in a
distributed system. Ex. 1010, 1. One of the examples
disclosed in Azevedo involves the computation of a
weighted average of certain clock correction terms in
order to smooth the clock correction terms, so that
volatility is attenuated. Pet. 44 (citing Ex. 1010, 1–
4).
According to Petitioner, “Janevski’s citation to the
Azevedo paper provides further support for the
conclusion that modifying a ‘participant’ PVR such
that was configured to calculate a weighted average
of the periodically-calculated values for either the

99a
‘time count’ differential or the ‘frame’ differential
would have been nothing more than a trivial change
for a PHOSITA.” Pet. 44–45 (citing Ex. 1009 ¶ 122).
Petitioner also argues that Janevski repeatedly
emphasizes the goal of providing precise
synchronization. Pet. 46 (citing Ex. 1007, Abstract,
3:43–57, 5:3–5). Hence, according to Petitioner, “it
would have been well known to a PHOSITA in 2001
that applying data smoothing to a periodicallycalculated data variable would reduce volatility of
such periodic calculations and thereby improve the
overall accuracy of the calculation.” Pet. 45 (citing Ex.
1009 ¶ 124). Petitioner concludes, and we agree, that,
in light of Janevski’s goal of providing precise
synchronization, a person of ordinary skill would have
been motivated to modify Janevski to use smoothing
to reduce volatility and improve the accuracy of
calculating Janevski’s time count or frame
differentials. Pet. 46 (citing Ex. 1009 ¶ 125).
For similar reasons, Petitioner argues that one of
ordinary skill would have combined Janevski with
either Mills, Berthaud, or Eidson to smooth
Janevski’s time count differential to reduce volatility
and provide precise synchronization. Pet. 59–64.
Mills, Berthaud, and Eidson relate to synchronizing
clocks of devices in a distributed network, just as
Azevedo does. Pet. 59–63. Petitioner argues that “the
nature of the problem to be solved by Janevski relates
to accuracy of synchronizing playback between
rendering devices that are nodes in a distributed
network, and Mills, Berthaud, and Eidson all disclose
mechanisms for improving the accuracy of ‘time
synchronization’ between nodes in a distributed

100a
network.” Id. at 64 (citing Ex. 1009 ¶ 166). Each,
according to Petitioner, applies smoothing in their
respective synchronization techniques, thus one of
ordinary skill in the art would have combined Mills,
Berthaud, or Eidson with Janevski to smooth the
periodically calculated values for Janevski’s time
count differential between initiator and participant
PVRs. Id. (citing Ex. 1009 ¶ 167).

b. Patent Owner’s Arguments
Patent Owner does not present any arguments
regarding whether Janevski and the clock
synchronization references teach any of the specific
limitations of claims 1 and 11 as asserted by
Petitioner. Instead Patent Owner argues Janevski
teaches away from the clock synchronization
references
and
that
objective
indicia
of
nonobviousness show that the claims would not have
been obvious.
Patent Owner argues that Janevski “teaches
away from using deviceclock-based smoothing
techniques such as those in the secondary references.”
PO Resp. 33. This is because, according to Patent
Owner, “Janevski expressly cites Azevedo as a
technique in which distributed processors in network
can ‘broadcast their respective clock values
periodically to maintain synchronization’” but instead
uses a different twostep technique. Id. Patent Owner
contends that “if it would have been obvious to modify
the Janevski system to smooth a rendering time using
techniques like Azevedo, Mr. Janevski would have
disclosed those techniques or incorporated those
techniques by reference into his patent since he was
aware of Azevedo.” Id. at 34.

101a
With respect to objective indicia of obviousness,
Patent Owner argues “[p]rior to the inventions of the
Challenged Claims, there was an unmet need for a
solution to synchronize across multiple devices the
playback of audio and video received from a source.”
PO Resp. 35 (citing Ex. 2001 ¶¶ 26–30; Ex. 2009 at
15; Ex. 2012 at 37–38). Patent Owner points to the
early Juno documents stating that “[b]oth Jupiter and
BeComm recognize that true synchronization is an
unsolved computer science problem” as evidence of
the invention’s long-felt need. PO Resp. 36 (citing Ex.
2009 at 14–15; Ex. 2001 ¶¶ 29–30). Patent Owner
claims that this evidence indicates that Intel had not
solved the synchronization problem and thus, a
solution was not obvious at the time. PO Resp. 36.
Patent Owner next argues that Intel’s willingness
to pay $850,000 and share 5% of Intel’s Consumer
Products Division revenue with BeComm is more
evidence of nonobviousness. PO Resp. 36–37 (citing
Ex. 2001 ¶ 29). Patent Owner also points to licensing
of the patented technology to various technology
companies as evidence of nonobviousness. PO Resp.
37. Finally, Patent Owner argues that companies
that used the claimed synchronization technology
have achieved significant commercial success. PO
Resp. 37.

c. Analysis
We find Petitioner has shown by a preponderance
of the evidence that claims 1–3, 8, 11, and 17 are
unpatentable over Janevski combined with each one
of the clock synchronization references. Petitioner
has provided sufficient evidence that Azevedo, Mills,
Berthaud, and Eidson teach synchronization

102a
techniques that involve smoothing of various clock
variables. Specifically, we agree that Azevedo relates
to fault tolerant clock synchronization in a distributed
system. Ex. 1010, 1. One of the examples disclosed
in Azevedo involves the computation of a weighted
average of certain clock correction terms in order to
smooth the clock correction term, so that volatility is
attenuated. Pet. 44 (citing Ex. 1010, 1–4). Similarly,
Mills relates to a NTP, “which is used to synchronize
timekeeping among a set of distributed time servers
and clients.” Ex. 1011, 1. Section 4 of Mills “describes
algorithms useful for deglitching and smoothing
clock-offset samples collected on a continuous basis.”
Id. Moreover, Berthaud discusses synchronization
between master and slave devices by measuring time
offset between their clocks. Ex. 1012, 266. In
Berthaud, an estimate of a clock offset is produced
from a set of observations “and several tools may be
used in the estimation evaluation process, such as:
mean value, weighted average, linear regression,
midpoint functions, etc.” Id. As Petitioner contends
and Dr. Chertov testifies (Ex. 1009 ¶ 159), we agree
that references to “mean value, weighted average,
linear regression, midpoint functions, etc.” refer to
various smoothing techniques. And finally, we agree
with Petitioner’s contention that Eidson “relates to
enhancements to time synchronization in distributed
systems.” Ex. 1013, 1:9–10. “The enhancements
include techniques that compensate for jitter
associated with communication circuitry in the
distributed system including jitter associated with
physical interfaces and gateways in the distributed
system.” Id., Abstract. Eidson describes that “[o]ne

103a
method for reducing the negative effects of jitter . . .
is to average the differences computed between the
time value in the timestamp latch and the timestamp.” Ex. 1013, 4:16–21. By averaging the
differences between time values, the evidence
supports that Eidson teaches smoothing the time
value differences.
Although Patent Owner is correct that the clock
synchronization references do not specifically teach
smoothing a rendering time differential, Petitioner is
not relying on these references for such a teaching.
Instead, Petitioner relies on each of the clock
synchronization references as teaching the general
technique of smoothing clock differentials and applies
such a technique to Janevski’s rendering time
differentials. See Pet. 44–47, 58–59, 63–64.
Petitioner articulates a reason with rational
underpinning for combining Janevski with the clock
synchronization references. In this regard, Petitioner
notes
that,
according
to
Janevski,
time
synchronization between the PVRs can be
implemented in many different known ways and
provides, as examples of such techniques, the various
clock synchronization techniques disclosed in
Azevedo. Pet. 44. We agree. Unlike the Ground 1
challenge based on Janevski alone, here there is an
explicit connection between smoothing techniques
and applying them to clock synchronization. Janevski
states “[t]ime synchronization can be implemented in
many different known ways” (Ex. 1007, 8:53–54) and
explicitly refers to Azevedo as disclosing one such way
(Ex. 1007, 8:54–59). Thus, Janevski itself indicates
that clock synchronization techniques may be

104a
applicable to synchronizing video timers. See Ex.
1007, 8:39–64. Janevski’s reference to Azevedo would
have led one of ordinary skill in the art to Azevedo’s
discussion of smoothing as applied to Azevedo’s clock
correction terms, which one of skill could then readily
have applied to Janevski’s time misregistration. Once
exposed to smoothing techniques as applied in
Azevedo, one of ordinary skill would reasonably have
looked to other references, such as Mills, Berthaud,
and Eidson that also teach smoothing in the context
of clock differentials.

(i) Teaching Away
We do not find Patent Owner’s argument that
Janevski
teaches
away
from
the
clock
synchronization references to be persuasive. Rather
than teaching away, Janevski expressly draws the
reader’s attention to Azevedo as an alternative way of
performing time synchronization. See Ex. 1007, 8:39–
64. The fact that Janevski does not adopt Azevedo’s
technique is not tantamount to teaching away from it.
See In re Fulton, 391 F.3d 1195, 1201 (Fed. Cir. 2004)
(“The prior art’s mere disclosure of more than one
alternative does not constitute teaching away from
any of these alternatives because such disclosure does
not criticize, discredit, or otherwise discourage the
solution claimed”); In re Mouttet, 686 F.3d 1322, 1334
(Fed. Cir. 2012) (“[T]he mere disclosure of alternative
designs does not teach away” and “just because better
alternatives exist in the prior art does not mean that
an inferior combination is inapt for obviousness
purposes.”).
Moreover, Patent Owner does not
contend that Janevski criticizes, discredits, or
discourages smoothing in general or as disclosed in

105a
Azevedo, Mills, Berthaud, or Eidson, nor do we find
any such criticism or discouragement.

(ii) Objective Indicia of Nonobviousness
The Graham factors instruct that we must
consider—apart from what the prior art itself would
have suggested—whether objective evidence of
nonobviousness (i.e., secondary considerations), when
present, may lead to a conclusion that the challenged
claims would not have been obvious. See, e.g.,
Stratoflex, Inc. v. Aeroquip Corp., 713 F.2d 1530,
1538–39 (Fed. Cir. 1983) (instructing that evidence of
secondary considerations, when present, must always
be considered in determining obviousness). It is only
a part of the “totality of the evidence”; its mere
existence does not control the conclusion of
obviousness. See Richardson-Vicks Inc. v. Upjohn
Co., 122 F.3d 1476, 1483 (Fed. Cir. 1997) (citations
omitted). Objective evidence of nonobviousness “may
often be the most probative and cogent evidence in the
record” and “may often establish that an invention
appearing to have been obvious in light of the prior
art was not.”
Transocean Offshore Deepwater
Drilling, Inc. v. Maersk Drilling USA, Inc., 699 F.3d
1340, 1349 (Fed. Cir. 2012). Objective evidence of
nonobviousness may include evidence of commercial
success, licensing, copying, praise by others, longfelt
but unresolved need, and failure by others. Graham,
383 U.S. at 17–18.
Objective evidence of
nonobviousness “is only relevant to the obviousness
inquiry ‘if there is a nexus between the claimed
invention
and
the
[objective
indicia
of
nonobviousness].’” In re Affinity Labs of Tex., LLC,
856 F.3d 883, 901 (Fed. Cir. 2017) (quoting Ormco

106a

Corp. v. Align Tech., Inc., 463 F.3d 1299, 1312 (2006)).
“[T]here is no nexus unless the evidence presented is
‘reasonably commensurate with the scope of the
claims.’” Id. (citing Rambus Inc. v. Rea, 731 F.3d
1248, 1257 (Fed. Cir. 2013) (quoting In re Kao, 639
F.3d 1057, 1068 (Fed. Cir. 2011)).

Long-Felt Unmet Need
Patent Owner argues “there was an unmet need
for a solution to synchronize across multiple devices
the playback of audio and video received from a
source.” PO Resp. 35 (citing Ex. 2001 ¶¶ 26–30; Ex.
2009 at 15; Ex. 2012 at 37–38).
In order to show a long-felt but unmet need for the
claimed invention, the objective evidence must show
that the need was a persistent one that was
recognized by those of ordinary skill in the art. In re
Gershon, 372 F.2d 535, 538 (CCPA 1967). Patent
Owner’s evidence shows that there was a need by
BeComm for synchronization at least around the time
of the Juno project in late 2000 and early 2001.
However, Patent Owner does not present sufficient
evidence showing that this need was persistent, longfelt, or recognized generally by persons of ordinary
skill in the relevant art. The Juno documents are
dated only one year before the priority date of the ʼ252
Patent and no evidence is presented showing that the
need for synchronization extended any further back
in time. Ecolochem, Inc. v. S. Cal. Edison Co., 227
F.3d 1361, 1377 (Fed. Cir. 2000) (finding a one-year
time between identification of the problem and
patented solution was insufficient to show “a long-felt
need”). Moreover, an internal BeComm document
reflecting the knowledge of employees at one company

107a
is not enough to show general recognition of an unmet
need in the relevant technical field.

Intel’s Partnership and Licensing
Patent Owner argues that Intel’s willingness to
pay $850,000 and share 5% of Intel’s Consumer
Products Division revenue with BeComm is more
evidence of nonobviousness. PO Resp. 36–37 (citing
Ex. 2001 ¶ 29). However, Patent Owner fails to
establish a nexus between Intel’s payment to
BeComm and the claimed invention. Juno was
intended to provide a subset of the functionality of a
larger home audio network that enables audio
services in the home environment. Ex. 2009, 7–8.
Juno provided transcoding and decoding of content,
including encryption, decryption, compression, and
decompression. Ex. 2009, 8. Juno also provided
routing capability for routing content to the
appropriate adapter, and also ensured that high
quality audio was delivered to the adapters. Ex. 2009,
8. The aforementioned features are all unrelated to
the ʼ252 Patent. Patent Owner does not provide any
information regarding how much of Intel’s payment
can be attributed to the specific claimed features of
the ʼ252 Patent.
Similar to its prior arguments, Patent Owner’s
argument regarding licensing also fails to provide
sufficient evidence demonstrating a nexus between
the licenses and the merits of the claimed invention.
No evidence is provided other than the inventor’s
uncorroborated testimony that patents that stem
from his work were licensed. The licenses and
licensed patents are not presented as evidence so that
a determination could be made as to how the claimed

108a
invention contributed to the licenses and their total
value.

Commercial Success
Finally, although Patent Owner argues that
companies that used the claimed synchronization
technology have achieved significant commercial
success (PO Resp. 37), the only company Patent
Owner identifies is Petitioner, which it alleges uses
synchronization technology that meets the claim
limitations. PO Resp. 37–38. As before, insufficient
evidence is provided to show a nexus between
Petitioner’s commercial success and the claimed
features of the ʼ252 Patent. Other than one mention
of synchronization in Petitioner’s annual report,
Patent Owner does not present evidence showing the
extent to which synchronization or the smoothing
features of the challenged claims contributed to
Petitioner’s revenue and profit margin.
In summary, we do not find Patent Owner’s
arguments regarding objective indicia of nonobviousness to be persuasive.

d. Conclusion
Having reviewed Petitioner’s and Patent Owner’s
arguments and evidence, we find that Petitioner has
established
that
Janevski
and
the
clock
synchronization references teach the limitations of
claims 1 and 11 and has provided a persuasive
rationale to combine the references.
We have
considered the objective indicia of non-obviousness
and accorded them appropriate weight along with all
of the Graham factors, and we agree with Petitioner
that claims 1 and 11 would have been obvious over

109a
Janevski combined with Azevedo, Mills, Berthaud, or
Eidson.

6. Dependent Claim 2
Claim 2 depends from claim 1 and recites
“wherein one of the plurality of master rendering
times includes a master device time at which the
master rendering device renders content.”
Petitioner argues, and we agree, that Janevski
teaches the limitations of claim 2 because it discloses
“that the ‘initiator’ PVR (the ‘master rendering
device’) periodically sends each ‘participator’ PVR a
‘status message’ that contains an indication of the
‘initiator’ PVR’s ‘time into the [video] program’ as well
as a ‘query time stamp’ for ‘a frame that the initiator
has just played or has recently played.’” Pet. 48
(citing Ex. 1007, Abstract, 7:36–50, 10:19–35, 12:5–
36; Ex. 1009 ¶ 129).
Patent Owner argues Janevski “fails to disclose
the ‘master device time’ limitation of claim 2.” PO
Resp. 38. Patent Owner argues that under the proper
construction, the claim term “device time” refers to a
time as indicated by a designated clock on the device,
and that “Janevski does not indicate if the query time
stamp contains a time indicated by a designated clock
of any particular device, let alone the initiator device.”
PO Resp. 39.
Petitioner responds that there is no difference in
scope between the parties’ proposed constructions
because even under Patent Owner’s construction,
“there is no limitation on what kind of clock can be ‘a
designated clock.’” Pet. Reply 26. Petitioner argues
that Janevski’s “query time stamp” is a “time value

110a
indicated by [a] clock of a given rendering device” and
cites the testimony of its expert, Dr. Chertov, and
Janevski for support. Pet. Reply 26 (citing Ex. 1007,
11:66–12:8, 12:18–29).
We agree with Petitioner that Janevski’s query
time stamp, included in the status message sent from
the initiator PVR to the participant PVR, teaches the
claimed “a master device time at which the master
rendering device renders content.” The time stamps
discussed in Janevski, including those found in
Figure 4 and Figure 5, and therefore also including
the query time stamp, originate from Janevski’s video
timer 212. See Ex. 1007, 9:18– 20 (“The message 402
is sent at a time A which is 0 hours, 0 minutes and 2
seconds according the video timer 212 of the initiator
PVR 114a.”). We find the video timer 212 of the
initiator device teaches a “designated clock” of the
claimed master device of claim 2, consistent with our
construction of the term “master device time” because
the video timer is designated to track the time of the
video output of Janevski’s PVRs. See Ex. 1007, 2:16–
20. The query time stamp is the time stamp of the
query frame and the query frame is the frame that is
rendered on the initiator device. See Ex. 1007, 10:36–
41 (“[T]he signature to be compared to the query
signature . . . is the signature of the I frame of the
participant PVR 114b whose time stamp is closest to
the time stamp 590 of the query frame.”). The time
stamp of the query frame is thus the time of the video
timer at which the initiator renders content. Thus,
we agree with Petitioner that Janevski’s query time
stamp teaches “a master device time at which the
master rendering device renders content.”

111a

7. Dependent Claim 3
Claim 3 depends from claim 1 and recites
“wherein sending the plurality of master rendering
times comprises sending a series of transmissions to
the first slave device, each one of the series of
transmissions being at a different time.”
Petitioner asserts, and we agree, that Janevski
teaches the additional limitations of claim 3 because
it discloses that status messages, which contain the
time into the video program and the query time
stamp, are sent periodically from initiator to
participant PVR. Pet. 48 (citing Ex. 1007, 7:36–38,
15:32–33). According to Petitioner, the periodic
transmission of status messages from initiator to
participant PVR amounts to “sending the plurality of
master rendering times comprises sending a series of
transmissions to the first slave device, each one of the
series of transmissions being at a different time.” Id.
at 49 (citing Ex. 1009 ¶ 130).
Patent Owner does not present arguments
against Petitioner’s contention that Janevski and the
clock synchronization references teach the specific
limitations of claim 3. See generally PO Resp. We
agree with, and adopt as our own findings and
conclusions, Petitioner’s evidence and analysis,
summarized above, which we determine show by a
preponderance of the evidence that Janevski teaches
the additional limitations of claim 3.

8. Dependent Claim 8
Claim 8 depends from claim 1 and recites
“wherein the first content stream is sent from a first
source device to the master rendering device and the

112a
second content stream is sent to the first slave device
from a difference source device.”
Petitioner asserts, and we agree, that Janevski
discloses that the “initiator” and “participant” PVRs
(the “master rendering device” and “slave rendering
device,” respectively) each receive respective
broadcasts of “digital bit streams” that may be sent by
“different cable or satellite providers.” Pet. 49 (citing
Ex. 1007, 3:13–16, 6:5–39, 16:44–52). Petitioner
contends “[b]ecause these ‘different cable or satellite
providers’ amount to different sources, this disclosure
amounts to the claim functionality of ‘the first content
stream [being] sent from a first source device to the
master rendering device and the second content
stream [being] sent to the first slave device from a
difference source device.’” Pet. 49 (citing Ex. 1009 ¶
131).
Patent Owner does not present arguments
against Petitioner’s contention that Janevski and the
clock synchronization references teach the specific
limitations of claim 8. See generally PO Resp. We
agree with, and adopt as our own findings and
conclusions, Petitioner’s evidence and analysis,
outlined above, which we determine show by a
preponderance of the evidence that Janevski teaches
the additional limitations of claim 8.

9. Dependent Claim 17
Claim 17 depends from claim 11 and recites
“wherein the master rendering device and the slave
device are part of a same system.”
Petitioner asserts, and we agree, that Janevski
discloses a “synchronized PVR viewing system’ that

113a
includes both an ‘initiator’ PVR (which amounts to the
claimed ‘master rendering device’) and a ‘participant’
PVR (which amounts to the claimed ‘slave rendering
device’).” Pet. 56 (citing Ex. 1007, Fig. 1, 6:4–25).
Thus, because the initiator and participant PVRs are
part of the same “synchronized PVR viewing system,”
Petitioner argues Janevski teaches the additional
limitations of claim 17.
Patent Owner does not present arguments
against Petitioner’s contention that Janevski and the
clock synchronization references teach the specific
limitations of claim 17. We agree with, and adopt as
our own findings and conclusions, Petitioner’s
evidence and analysis, summarized above, which we
determine show by a preponderance of the evidence
that Janevski teaches the additional limitations of
claim 17.

Ground 6: Obviousness over Janevski and
Baumgartner
1. Overview of Baumgartner
Baumgartner discloses “[a] method and [system]
for synchronizing audio and video data streams in a
computer system during multimedia presentation.”
Ex. 1014, Abstract. “The method . . . periodically
queries each driver for the current audio and video
position (or frame number) and calculates the
synchronization error. The synchronization error is
used to determine a tempo value adjustment to one of
the data stream designed to place the video and audio
back in sync. . . . The method applies a smoothing
function to the determined tempo value to prevent
overcompensation.” Ex. 1014, Abstract.

114a

2. Claims 1–3, 8, 11, and 17
As before, Petitioner argues Janevski teaches all
the limitations of the challenged claims, except for the
smoothing element of the claims. Pet. 64. For
“smoothing,” Petitioner relies on Baumgartner and
argues that its “application of a ‘smoothing’ function
to a frame offset while synchronizing the rendering of
two streams of multimedia frames” combined with
Janevski’s teachings would render the challenged
claims obvious. Pet. 65 (citing Ex. ¶¶ 169–180).
Petitioner argues that Baumgartner discloses a
method for synchronizing separate audio and video
data streams. Pet. 65 (citing Ex. 1014, 6:18–20). In
order to synchronize audio with video, Baumgartner
calculates a synchronization error value, “which is
essentially the number of frames by which the video
frame position is in front of or behind the current
audio frame position.” Pet. 66 (quoting Ex. 1014,
6:50–55, 13:60–67). The synchronization error value
is transformed into a video tempo value that adjusts
the rendering of the video stream. Pet. 66 (citing Ex.
1014, 6:56–7:4). Petitioner argues that before
performing the adjustment, Baumgartner “adjusts
this video tempo value by applying a smoothing
function, i.e., a weighted average of prior tempo
values, to the determined tempo value.” Pet. 66
(quoting Ex. 1014, 6:61–65).
Petitioner argues a person of ordinary skill in the
art would have been motivated to combine Janevski’s
teachings with Baumgartner’s teachings so that a
smoothing function would be applied to the
periodically calculated frame differentials between
initiator and participant PVRs in Janevski. Pet. 67

115a
(citing Ex. 1009 ¶ 176). Petitioner emphasizes that
the ʼ252 Patent, Janevski, and Baumgartner “all have
the same objective, which is to synchronize playback
of multiple streams of multimedia content” and all
also “express a desire to improve the accuracy of
synchronizing playback of multiple streams of
multimedia content to improve user experience.” Id.
at 67–68.
Petitioner’s arguments and supporting evidence
contending that Baumgartner’s smoothing of tempo
value would be combinable with and applied to
Janevski’s frame differential are insufficient. It is
Baumgartner’s synchronization error value that most
closely
analogizes
to
Janevski’s
frame
misregistration. See Ex. 1014, 6:50–55 (explaining
that the synchronization error value “is essentially
the number of frames by which the video frame
position is in front of or behind the current audio
frame position”). However, Baumgartner does not
disclose smoothing of the synchronization error value.
Instead, Baumgartner uses the synchronization error
value to assign a tempo value, which is used to adjust
the audio or video stream’s tempo to achieve
synchronization between the two. Ex. 1014, 6:39–65.
Thus, it is not apparent, based on Petitioner’s
allegations and evidence relied upon, that smoothing
of the tempo value would have suggested to one of
ordinary skill in the art the smoothing of Janevski’s
frame differential because the two parameters are
different.
Further, we find Petitioner has not
sufficiently explained how smoothing Janevski’s
frame differential would “improve the accuracy of
synchronization playback of multiple streams” (Pet.

116a
67), as Petitioner contends.
We therefore conclude, on the record before us,
that the Petitioner has not presented adequate
evidence and reasoning in support of its challenge of
claims 1 and 11, and claims 2, 3, 8, and 17, which
depend from one of claims 1 and 11, as obvious over
Janevski in combination with Baumgartner.

E. Motion to Exclude
Petitioner filed a Motion to Exclude (Paper 30)
two sets of exhibits: (1) Exhibits 2002–2009, 2011–
2078, and 2083–2088, which Petitioner seeks to
exclude on the ground that they are not properly
authenticated, and (2) Exhibits 2081 and 2082 as
being improperly incorporated by reference.

1. Exhibits 2002–2009, 2011–2078, and 2083–2088
Petitioner argues Exhibits 2002–2009, 2011–
2078, and 2083–2088 were submitted by Patent
Owner to corroborate Mr. Balassanian’s testimony on
conception and reduction to practice, but that Patent
Owner fails to authenticate these exhibits with
evidence that is not dependent solely on the testimony
of Mr. Balassanian himself. Paper 30, 1–3.
Patent Owner argues that the exhibits do not rely
on Mr. Balassanian’s testimony alone. For example,
Patent Owner points to metadata from the CVS
source code repository system and the computer file
system on which the exhibits were originally stored
as providing independent evidence of authentication,
including an indication of the dates when the exhibits
were authored. Paper 33, 1–9. The only exhibit for
which metadata is not presented is Exhibit 2038, an
email chain that Patent Owner argues is dated on its

117a
face and discusses another exhibit (Exhibit 2037) for
which Patent Owner has submitted metadata. Paper
33, 9.
Petitioner, in its Reply, argues that the metadata
is essentially part of the documents themselves, and
that because these documents and the included
metadata all come from Mr. Balassanian, they cannot
constitute independent evidence of authenticity.
Paper 34, 2–3. According to Petitioner, independent
evidence of authenticity would need to come from
someone other than the inventor. Id. at 2.
Federal Rule of Evidence 901(a) states that “[t]o
satisfy the requirement of authenticating or
identifying an item of evidence, the proponent must
produce evidence sufficient to support a finding that
the item is what the proponent claims it is.” The Rule
provides several examples of evidence that may
satisfy the requirement, including the testimony of a
witness with knowledge that the item is what it is
claimed to be. Fed. R. Evid. 901(b)(1).
We are not persuaded by Petitioner that Patent
Owner’s exhibits lack sufficient authentication. Mr.
Balassanian testifies that he was the authorized
custodian of BeComm and that the exhibits are true
copies of the original records and were kept in the
course of regularly conducted business activity. Ex.
2001 ¶¶ 81–83. Mr. Balassanian’s testimony also
describes the CVS repository as tracking the dates,
users, and versions of the exhibits, and recording such
information in the source code files themselves and
also in log files. Ex. 2001 ¶ 85–89; see also Ex. 2080
¶ 19.
Patent Owner submitted the metadata
containing the log files and also metadata from the

118a
file systems on which the exhibits were originally
stored. See, e.g., Exs. 2013, 2077. We find Mr.
Balassanian’s testimony coupled with the metadata
from the CVS repository and file system sufficient to
authenticate the exhibits. We disagree that such
testimony and evidence should be excluded on the
basis of insufficient authentication because they stem
from the inventor himself.
To the extent the analysis of whether the exhibits
are sufficiently authenticated and the analysis of
whether
they
effectively
corroborate
Mr.
Balassanian’s testimony overlap with each other, we
find that the documents and their metadata do not
suffer from the circular evidentiary problems argued
by Petitioner. See ATI Tech. ULC v. Iancu, 920 F.3d
1362, 1370–71 (Fed. Cir. 2019) (relying in part on
metadata from a revision-control system to
corroborate inventor testimony).

2. Exhibits 2081 and 2082
The second set of documents sought to be
excluded by Petitioner are Exhibits 2081 and 2082,
which are claim charts attached to Patent Owner’s
expert declaration containing a limitation-bylimitation mapping of BeComm source code to the
challenged claims. See Exs. 2081, 2082. Patent
Owner relies on these charts as evidence that
BeComm source code practices the claim limitations
and therefore that the inventors conceived of and
reduced the invention to practice prior to Janevski’s
priority date. PO Resp. 29–31. As indicated above,
however, we find that BeComm source code, even if it
practices the claim limitations, does not show that the
inventors conceived of the invention. This is because

119a
the source code files themselves indicate the source
code was authored by non-inventor Mr. Carpenter,
rather than the two named inventors.
Because we have not relied upon Exhibits 2081 or
2082 in this Decision, we dismiss Petitioner’s Motion
to Exclude as moot as it relates to these two exhibits.
III. CONCLUSION
For the foregoing reasons, we conclude Petitioner
has demonstrated by a preponderance of the evidence
that claims 1–3, 8, 11, and 17 of the ʼ252 Patent are
unpatentable under 35 U.S.C. § 103(a) over Janevski
in combination with Azevedo, Mills, Berthaud, or
Eidson but has not demonstrated by a preponderance
of the evidence that the aforementioned claims are
unpatentable over Janevski alone, or over Janevski
combined with Baumgartner.
ORDER
For the reasons given, it is:
ORDERED that claims 1–3, 8, 11, and 17 are held
to be unpatentable;
FURTHER ORDERED Petitioner’s Motion to
Exclude is denied-inpart with respect to Exhibits
2002–2009, 2011–2078, and 2083–2088 and
dismissed-in-part as moot with respect to Exhibits
2081 and 2082; and
FURTHER ORDERED that, because this is a
Final Written Decision, the parties to the proceeding
seeking judicial review of the decision must comply
with the notice and service requirements of 37 C.F.R.
§ 90.2.

120a
PETITIONER:
Rory P. Shea
Cole B. Richter
George I. Lee
Michael P. Boyea
LEE SULLIVAN SHEA & SMITH LLP
shea@ls3ip.com
richter@ls3ip.com
lee@ls3ip.com
boyea@ls3ip.com
PATENT OWNER:
James Hopenfeld
SINGER BEA, LLP
jhopenfeld@singerbea.com
Christian Hurt
THE DAVIS FIRM PC
churt@bdavisfirm.com

121a
APPENDIX D:
Constitutional Provision Involved
U.S. Const. art. II, § 2.
Section 2. The President shall be Commander in
Chief of the Army and Navy of the United States, and
of the Militia of the several States, when called into
the actual Service of the United States; he may
require the Opinion, in writing, of the principal
Officer in each of the executive Departments, upon
any Subject relating to the Duties of their respective
Offices, and he shall have Power to Grant Reprieves
and Pardons for Offences against the United States,
except in Cases of Impeachment.
He shall have Power, by and with the Advice and
Consent of the Senate, to make Treaties, provided two
thirds of the Senators present concur; and he shall
nominate, and by and with the Advice and Consent of
the Senate, shall appoint Ambassadors, other public
Ministers and Consuls, Judges of the supreme Court,
and all other Officers of the United States, whose
Appointments are not herein otherwise provided for,
and which shall be established by Law: but the
Congress may by Law vest the Appointment of such
inferior Officers, as they think proper, in the
President alone, in the Courts of Law, or in the Heads
of Departments.
The President shall have Power to fill up all
Vacancies that may happen during the Recess of the
Senate, by granting Commissions which shall expire
at the End of their next Session.

